                              Office of the Inspector General
                      Corporation for National and Community Service




                                       Review of the
                     Corporation for National and Community Service
                                       Action Plan

                             OIG Audit Report Number 00-13
                                    October 8,1999




This report was issued to Corporation management on December 1, 1999. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than May 30,2000, and complete its corrective
actions by December 1,2000. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                                                                   FOR NATIONAL
December 1, 1999

The Honorable Ted Stevens
Chairman
Committee on Appropriations
United States Senate
Capitol Building
Washington, D.C. 205 10-6025

The Honorable C. W. Bill Young
Chairman
Committee on Appropriations
U.S. House of Representatives
H-2 18 Capitol Building
Washington, D.C. 205 15-6015

Dear Mr. Chairmen:

This is our sixth and final report in compliance with requirements established in the
House of Representatives Conference Committee Report accompanying PL 105-276 to
review and comment on the Corporation's plan and progress in regard to the expenditure
of the $3,000,000 in funds earmarked for financial management reforms and urgent
program administration needs.

The Corporation responded to the Committee Report's requirements by establishing an
Action Plan for financial management improvements. OIG's initial review revealed that
most of the planned tasks to achieve financial management improvement were not
scheduled to be completed until the second half of fiscal year 1999. We concluded that it
would not be possible to provide the Conferees with a meaningful assessment of progress
until the final quarter of the fiscal year. Therefore, we engaged KPMG to review the
Corporation's progress in implementing the Action Plan and related expenditures as of
August 21, 1999. The enclosed report presents the results of KPMG's review. We have
reviewed the report and the work papers supporting its conclusions and agree with the
findings and recommendations.

KPMG reports that several significant tasks have been achieved, such as the conversion
to a new accounting system (Momentum) and the implementation of a document imaging
capability for the National Service Trust. However, KPMG also identifies several areas
where the Corporation needs to improve its planned corrective actions. The most
significant of these include:

       The Corporation lacks a cost accounting system to track actual expenditures
       against the funds allocated to Action Plan activities in accordance with the
       Corporation's fiscal year 1999 appropriation. A cost accounting system would
       also be beneficial to the Corporation in producing meaningful financial statements
       and to report on its performance by program activity as required under the
       Government Performance and Results Act.
                                                                                Inspector General
                                                                                1201 New York Avenue, NW
                                                                                Washington, DC 20.525
      The system and users documentation for the National Service Trust imaging
      system is insufficient to enable the Corporation to effectively maximize the use of
      the imaging capability of the Trust.

      The documentation maintained by the Corporation for management accountability
      and control events, such as decisions made and actions taken to complete Action
      Plan tasks, is not always adequate to support task completion.

       A comprehensive set of Corporation-wide policies and procedures needs to be
       completed in order for Corporation personnel to effectively and efficiently
       perform their duties in accordance with management directives.

       The self-assessment component of the Corporation's management control plan
       needs to be more comprehensive and to be performed for all assessable units.

       A Chief Information Officer needs to be added to the Corporation management
       team to provide leadership in assessing Information Technology issues.

       Follow-up with the contractor who issued the Corporation's Independent
       Validation and Verification report for Year 2000 compliance is required to clarify
       the completeness and accuracy of certain reported matters.

We provided a draft of this report to the Corporation for comment. In its response
(Appendix A) the Corporation cites several of the report's findings and indicates general
agreement with them. However, with respect to the report's recommendations, the
Corporation responded:

   "The draft report makes several recommendations, some of which have been
   previously identified in other audit reports. We agree with many of these
   recommendations, and disagree with others. In the FY 2000 Action Plan and as
   part of the audit resolution process, we will address those recommendations we
   agree with, and provide the Office of the Inspector General our rationale for those
   recommendations with which we disagree."

This OIG report is being sent to all members of the Senate and House Appropriations
Committees, Corporation for National and Community Service management, and
congressional committee staff. We will make copies available to others upon request. If
you have any questions, or wish to discuss these matters, please call William L.
Anderson, Assistant Inspector General for Audit at (202) 606-5000 extension 390.




Inspector General
                  2001 M Street. N.W.
                  Washington, D.C. 20036




October 8, 1999


Inspector General
Corporation for National and Community Service:

KPMG LLP has reviewed the Corporation for National Service's progress in implementing its
Action Plan for financial management improvements and related expenditures as of August 2 1,
1999. The procedures we performed, the results of our work, and our comments and
recommendations are summarized in this letter and described in detail in Exhibits A and B.

Background

The National and Community Service Trust Act of 1993 established the Corporation for National
and Community Service as a Government Corporation subject to the requirements of the
Government Corporation Control Act. The Corporation receives an annual appropriation to
support its mission of awarding grants and cooperative agreements to state commissions and
nonprofit entities to assist in the creation of full and part-time national and community service
programs.

Since its inception in 1994, the Corporation has experienced a variety of financial management
problems that have been the subject of numerous OIG reports and of congressional scrutiny.
Additionally, the Corporation's financial statements have not been fully auditable due, in part, to
material weaknesses in internal controls.

To assist the Corporation in its efforts to improve financial management, Congress mandated that
$1.5 million be redirected from the Corporation's annual appropriation to fund financial
management reforms, and approved an additional $1.5 million in fiscal year 1999 appropriations
earmarked for the same purpose. The House of Representatives Conference Committee Report
accompanying PL 105-276 indicated that "the conferees intend that the Corporation will submit
to the House and Senate Committees on Appropriations within 60 days of the enactment of this
Act a detailed plan for the expenditure of the $3,000,000 in funds reserved to meet urgent
program administration needs. Further the Corporation will provide regular updates to the House
and Senate Committees on Appropriations every 60 days on the use of these funds in accordance
with that plan." Urgent program administration needs were defined as "financial management,
database and related financial systems development, and Year 2000 computer problems."

The Conference Report also required that the Corporation Office of Inspector General
independently review and comment upon the Corporation's Plan and each update within 30




   1111            KPMG LLP KPMG LLP a U S llmtted Iablllty partnership
                   a member of KPMG Inlernat~onala S w s s assocatlon
                                                                          $5
calendar days of their submission to the Congress during fiscal year 1999. The OIG issued five
reports during fiscal year 1999 in fulfillment of this requirement.' This report will complete the
OIG's review requirement.

Summary of Results

Based on our review of the status of the Action Plan implementation, the following significant
accomplishments have been made:

      The Corporation's accounting operations have been converted to a new accounting system -
      Momentum;
      A CFO has been ~onfirrned;~
      A functional document imaging capability has been implemented for the National Service
      Trust;
      A management control plan has been developed;
      An operational VISTA Management System cost sharing billing module system has been
      implemented; and
      A tracking mechanism to monitor status of corrective actions addressing audit findings has
      been developed.

The overall requirements for this work and the results were, as follows:

1. Examine and report on the costs reported (both actual and estimated) by the Corporation to
      accomplish the Action Plan. As part of this evaluation, determine if the costs are charged to
      the correct appropriation accounts fiscal year 1999 administrativefunds), are supported by
      adequate documentation and, if not, which costs have been reasonably estimated.

      The Corporation developed a budget for planned expenditures of the fiscal year 1999
      allocated appropriation subsequent to the submission of the December 21, 1998 Action Plan
      status report to Congress. No revisions have been made to the initial estimates since the
      budget was initially developed for planned expenditures. Of the $3 million in planned
      expenditures to implement the Action Plan, approximately $1.7 million was for ongoing
      financial operations and training, and approximately $1.3 million was for special projects and
      conferences. Corporation management has stated that it considers the expenditures as
      planned to be within the intended definition of expenditures in the Conferees' report.

      The Corporation does not have a cost accounting system to track actual expenditures of the
      allocated appropriation related to the Action Plan. In general, the "actual costs" identified in
      the periodic reports to Congress are comprised of 100 percent of personnel costs (such as
I
    Report Number 99-17, Review of the Corporation S Action Plan, dated January 13, 1999; Report Number 99-23,
    Review of the Corporation's February 19, 1999 Action Plan Progress Report, dated March 19, 1999; Report
    Number 99-25, Review of the Corporation's April 21, 1999 Action Plan Progress Report, dated May 19, 1999;
    Report Number 99-30, Review of the Corporation's June 21, 1999 Action Plan Progress Report, dated July 21,
    1999; Report Number 99-38, Review of the Corporation's August 21, 1999 Action Plan Progress Report, dated
    September 20, 1999.
2
    Anthony Musick was confirmed as the Corporation's CFO by the Senate on November 19, 1999.
  salaries and benefits) for certain Corporation staff considered to be working on the Action
  Plan full time, estimated allocations of personnel costs for other Corporation staff (based on
  the extent of involvement in particular tasks), costs of conference attendance and training,
  telephone coverage through an outside vendor, financial statement preparation, data clean-up,
  and other related activities.

   We reviewed the supporting documentation for the Corporation's identified actual costs in
   relation to the Action Plan. We verified the payroll expenses for the 100 percent allocated
   and one 50 percent allocated personnel. The Corporation currently does not track time
   charged by personnel on an individual project basis. However, the Corporation represented
   to us that the daily duties of the 100 percent allocated personnel were focused solely on the
   completion of tasks required to implement the Action Plan. We also reviewed the estimated
   personnel time that was allocated in relation to attending conferences and addressing
   particular task needs. These estimates appeared reasonable. The Corporation also provided
   supporting documentation for all other nonpersonnel costs reported on the actual expenditure
   detail report.

   During our review of the supporting documentation, we noted two instances where, in the
   aggregate, the travel costs reported on the expenditure schedule were overstated by
   approximately $1 1,000. We also noted a transposition error in calculated personnel costs,
   which resulted in an overstatement of approximately $60,000.

   The Corporation implemented a new accounting system, Momentum. However, the optional
   cost accounting module was not purchased. The Corporation stated that it was not aware of
   any cost reporting requirement. Sound management practices and the requirement to
   produce meaningful financial statements establish the need to report the costs of the
   Corporation's project and program expenses.

   We recommend that the Corporation develop a cost accounting system which could be used
   to track actual expenditures related to the current Action Plan, as well as other project and
   program expenses. Such a cost accounting system would facilitate timely identification of
   cost over-runs, inefficient use of resources, etc., for Corporation management to take
   appropriate action. In addition, personnel should track their time by individual projects to
   identify specific expenditures related to tasks in the Action Plan.

   We also recommend that the expenditure detail be adjusted to correct the exceptions we
   identified regarding costs reported that did not match the supporting documentation.

2. Verzjj the number of goals, objectives and tasks the Corporation is reporting on. Document
   and report on new or revised goals, objectives and tasks in the Action Plan.

   The Action Plan outlines the Corporation's goals, objectives, and individual action steps
   intended to correct financial management weaknesses, strengthen Corporation management,
   increase the use of technology, and improve stewardship over Federal funds. The Action
   Plan was developed in part, to address recent auditability surveys, operational reviews
   (including procurement operations) and the 1997 and 1998 financial statement audits. It also
   includes those tasks the Corporation deemed necessary to improve financial management and
   operation of the Corporation resulting from its self-assessment process and other
   recommendations from management. The Corporation has made revisions to the goals,
   objectives, and tasks, including revisions to planned completion dates, when it has
   determined changes to the Plan are needed. (Exhibit B - Task Status Matrix lists each goal,
   objective and task in the Action Plan).

   The initial Action Plan was dated December 21, 1998, included 8 goals, 37 objectives, and
   165 related tasks. In the December 21, 1998 Action Plan, the Corporation anticipated that
   149 tasks would be completed by September 30, 1999. The August 21, 1999 Action Plan
   update included 9 goals, 46 objectives, and 260 tasks. Of these, no goals have been
   completed, 11 objectives have been completed and 168 tasks have been completed. The
   Corporation also revised (changed estimated completion date, redefined nature of task, etc.)
   or deleted tasks 152 times.

3. Document and report on thefollowing for each objective in the Action Plan.

       Whether an objective is on schedule with its original due date as stated in the December
       1998 Action Plan (if an objective was added subsequent to the December 1998 Action
       Plan, as established in the Action Plan iteration the objectivefirst appeared in).
       Whether the objective is behind schedule or has a revised due date.
       Whether the Corporation has adequate documentation to support the status or
       completion of the objective included in the Action Plan. Ifadequate support is not
       available, identzfi what additional support should be maintained by the Corporation to
       document the status or completion of the objective. If adequate support is available,
       evaluate whether the documentation supports the status or completion of the objectives as
       stated in the Action Plan.

   A summary of our significant findings is as follows:

   National Service Trust - The Corporation implemented a h c t i o n a l document imaging
   capability. However, the file document imaging capability is not supplemented by a user's
   manual and relevant system documentation. Additionally, it does not have all the necessary
   documentation that references the back-file conversion efforts (e.g., number of compact discs
   or CDs, CD labels, year of the images, and how many images in each CD) performed by the
   contractor. This documentation is necessary to enable the Corporation to effectively
   maximize the use of the imaging capability of the Trust.

   The Corporation does not have documented investment policies and procedures. Thus, in the
   absence of the normally assigned personnel performing investment procedures, there are no
   guidelines for another person to follow.

    The Corporation inputs each investment transaction in its general ledger as well as in a
    subsidiary ledger that does not interface with the general ledger, resulting in an unnecessary
    duplication of records and effort.
Documentation of Management Actions - Corporation management does not always
adequately document certain significant management accountability and control events. We
found instances where decisions made, and actions taken, to implement Action Plan tasks,
could not be supported by management with formal documentation. For example, evidence
of written notification to management to support task completion, postponement or revision
was not always available. Adequate documentation is necessary and must be clear and
readily available to provide reasonable assurance that, among other things, significant
decisions and events are documented for future reference, and approvals obtained fiom
officials with authority are properly on file.

General Control Environment - The Corporation does not have comprehensive policies and
procedures. A comprehensive set of policies and procedures needs to be issued in order for
Corporation personnel to effectively and efficiently perform their duties in accordance with
management directives and relevant industry standards, and in compliance with applicable
laws and regulations.

The Corporation implemented a management control plan. However, the self-assessment
component needs to be more comprehensive. All assessable units need to be initially
surveyed, grants management needs to be surveyed annually and information technology (IT)
controls need to be included in the self-assessment survey. Additionally, the Office of the
Chief Operating Officer tracks and validates corrective actions addressing weaknesses
resulting from various audits, primarily through review of relevant documentation, while the
primary method used by the Chief Operating Officer to track lower-level weaknesses is
discussion at weekly staff meetings until agreement is attained that the weakness has been
corrected.

To ensure proper disposition of weaknesses, we recommend an independent validation
function for verifying corrective actions should be initiated.

A Chief Information Officer (CIO) needs to be added to the Corporation management team
to strengthen its overall infrastructure. The CIO would provide needed leadership in
addressing IT issues such as development of critical systems and strategic planning to attain
IT goals.

Independent Validation and Verification Rexlort - Follow-up with the contractor who issued
the Corporation's Independent Validation and Verification report for Year 2000 compliance
is required to clarify the completeness and accuracy of certain reported matters.

Exhibit A presents our findings and recommendations related to the status of each Action
Plan objective in greater detail. In addition, we have made specific recommendations, which
are included in Exhibit B.
4. Provide suggestions to improve the Action Plan based on the workperformed.

   We have the following general recommendations for Action Plan improvements.

   A. Reemphasize Goals and Objectives - Although the Action Plan is considered a dynamic
   tool to guide the Corporation in all aspects of its financial management improvement efforts,
   certain of the goals and objectives should receive priority attention in their achievement. At
   the current point of the Action Plan's life cycle, we believe the completion of the following
   tasks and objectives should receive the highest priority attention in order for the Corporation
   to function more efficiently and better achieve its mission:

       Ensure that the recently implemented accounting system, Momentum, is fully functional
       and operating as intended;
       Hire a Chief Information Officer;
       Implement a functional grants management system;
       Issue a comprehensive set of policies and procedures; and
       Resolve differences reported in the U.S. Treasury Statement of Differences report, and
       post necessary adjustments to the general ledger, in order to facilitate timely completion
       of the fiscal year 1999 financial statement audit.

       Establish realistic completion dates - Completion dates for certain tasks were either not
   met, or are not expected to be met, based on their current status. We also noted that some
   task completion dates have been revised several times. Establishing realistic milestones
   provides reasonable assurance that tasks will be completed on time and resources are
   properly allocated.

   C. Establish criteria to measure results and completion of tasks - Certain tasks require
   additional follow-up in order to determine whether the objectives they relate to have been
   met. Additionally, the wording of certain tasks is ambiguous as to when they should be
   considered complete. Establishing specific criteria to define at what point tasks should be
   considered complete, and how the results of the tasks will be measured, will help the
   Corporation demonstrate meaningful progress in achieving its goals for improved financial
   management.

   D. Objectives need to be more specific relative to the tasks - Certain objectives were
   broadly written relative to the corresponding tasks. We noted objectives that were universal
   in theme, or mission-oriented in nature but the corresponding tasks were related to very
   specific Corporation operations. The tasks should be revised to ensure the accomplishment
   of the objectives. Tasks that are aligned with objectives enable management to effectively
   focus its efforts and resources.
5. For those Action Plan objectives identzfied in Appendix 1 accompanying the task order
   statement of work, perform the speczfic procedures listed, including assessing the status of
   each objective in the Action planJ, to test and report on the Corporation S progress in
   implementing the objectives.

      See Exhibit B, Task Status Matrix, which lists each goal, objective and task in the Action
      Plan and results of our review procedures.

Objectives, Scope, and Methodology

As noted above, we were engaged by the OIG to assess the Corporation's progress in
implementing its Action Plan. We conducted our review in accordance with Government
Auditing Standards issued by the Comptroller General of the United States. Our objectives were
to assess the following:

(1) The adequacy of tasks and objectives to accomplish the Action Plan goals, and the
    Corporation's ability to recognize incremental improvements before completion of all tasks
    related to specific objectives;
(2) The number of goals, objectives, and tasks the Corporation reported on;
(3) Whether the objectives are on schedule and whether the Corporation has established realistic
    milestones;
(4) Whether the Corporation has adequate documentation to support the status or completion of
    the objectives;
(5) Whether the costs reported (both actual and estimated) by the Corporation are supported by
    proper documentation and the correct appropriation account was charged; and
(6) The adequacy of the Corporation's methodology to track and report the costs of the Action
    Plan.

We also performed specific procedures requested by the OIG to determine the status of specific
objectives. See Exhibit B for details of our review. These procedure included the following
procedures:

      Reviewing the Action Plan reports submitted to Congress by the Corporation, the related
      comments prepared by the Corporation OIG, and the relevant Corporation OIG working
      papers supporting these comments;
      Obtaining an understanding of the Corporation's progress relative to the Action Plan by
      interviewing Corporation staff;

3
    The procedures for assessing the status of each objective were:

 1.    Obtain documentation on the status of the objective.
2.     Review documentation on the status and compare this to the status reported in the August 2 1, 1999 Action Plan
       Update.
3.     Conclude as to the status of the objective, and whether the status or progress reported is adequately
       documented.
4.     Follow-up with inquiries to appropriate Corporation personnel if the status is not adequately documented.
   Performing walkthroughs of Corporation operations;
   Inspecting documentation supporting the accomplishment of the objectives and tasks;
   Preparing write-ups and flowcharts of the results as appropriate;
   Reviewing support documentation for the cost of implementing the Action Plan;
   Performing and documenting agreed-upon procedures for specific objectives listed in the
   appendix to the task order; and
   Providing suggestions, as necessary, to improve the Plan based on our review.

Response to Draft Report

We provided a draft of this report to the Corporation for comment. In its response (Appendix A)
the Corporation cites several of the report's findings and indicates general agreement with them.
However, with respect to the report's recommendations, the Corporation responded:

   "The draft report makes several recommendations, some of which have been previously
   identified in other audit reports. We agree with many of these recommendations, and
   disagree with others. In the FY 2000 Action Plan and as part of the audit resolution
   process, we will address those recommendations we agree with, and provide the Office of
   the Inspector General our rationale for those recommendations with which we disagree."



We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on specified elements, accounts, or items. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have
come to our attention that would have been reported to you.

This report is intended solely for the information and use of United States Congress, the
management of the Corporation for National and Community Service and the Office of the
Inspector General and is not intended to be and should not be used by anyone other than these
specified parties.
Exhibit A                                                                              Exhibit A

                      FINDINGS AND RECOMMENDATIONS


Completion Dates

The Corporation establishes completion milestones for each individual task within the objectives
of the goals. Establishing realistic milestones provides reasonable assurance that resources are
properly allocated and tasks will be completed on time.

We reviewed the status of individual tasks within the August 21, 1999 Action Plan status report
to determine progress to date and whether established milestones were likely to be met. Based on
our review of supporting documentation and/or inquiry of Corporation management, completion
dates for 22 tasks have been missed or are not likely to be met.

Some of the significant tasks with delinquent completion dates are:

    Goal 2, Objective 1, Task 2 - Analyze National Service Trust historical files electronically to
    determine where records could be improved and develop implementation plan;
    Goal 3, Objective 1, Task 5 - Review Statement of Differences and identify adjustments by
    end of every month; and
    Goal 1, Objective 3, Task 8 - Approve updated delegations of authority.

The remaining tasks where completion dates have been missed or are not likely to be met are
described in the Task Status Matrix in Exhibit B.

We also noted that some task completion dates have been revised several times by the
Corporation. If established tasks are not completed timely, or completion dates are consistently
revised, regardless of the underlying reason for the delay, it is difficult for the Corporation to
demonstrate improvement in controls over financial management.

Recommendation

We recommend that the Corporation establish and adhere to realistic due dates for all Action
Plan tasks.
Exhibit A                                                               Exhibit A, Continued

              FINDINGS AND RECOMMENDATIONS, Continued


Establish Criteria to Measure Results and Completion of Tasks

Measurement of Results

The completion of established Action Plan goals and objectives is dependent on the successful
accomplishment of individual tasks within each objective. In assessing the status of the Action
Plan, we identified ten tasks that require follow-up tasks to demonstrate achievement of the
related objective. For example, the objective to "improve staff competencies through training"
includes a task to "provide training on financial accounting and reporting requirements to
appropriate accounting staff." This task should be expanded or supplemented by an additional
follow-up task to determine whether training resulted in an increased level of competencies as
required by the objective.

Recommendation

We recommend that the Corporation expand or supplement the relevant tasks in the Action Plan
to ensure that all necessary procedures are identified that will lead to full accomplishment of an
objective.

Determining the Successful Accomplishment of Tasks

Establishing specific criteria to determine the completeness of a task ensures that the task is
measurable upon completion. We identified four tasks that contained ambiguous criteria for
determining their completion. For example, the objective to "make payments via Electronic
Funds Transfer (EFT)" includes a task to "throughout year, monitor progress in converting
recipients to EFT." This task does not specify what steps need to be taken to monitor the
progress nor at what point the task can be considered complete.

Recommendation

We recommend that the Corporation specify and incorporate within the task the criteria to be
used to measure when the task should be considered complete.
Exhibit A                                                               Exhibit A, Continued

              FINDINGS AND RECOMMENDATIONS, Continued



National Service Trust

Document Imaging Project

The Action Plan status report includes a task to "electronically capture through imaging
technology all existing Trust file documents." However, the Trust file document-imaging project
is not supplemented by a users manual and relevant system documentation. Additionally, it does
not have all the necessary documentation that references the back-file conversion efforts (e.g.,
number of compact discs or CDs, CD labels, year of the images such as 1994 and 1995, how
many images in CD, etc.). This documentation is necessary to enable the Corporation to
effectively maximize the use of the imaging system capabilities. We also noted that there is no
formal documentation from the contractor to confirm that the project is complete.

OMB Circular A-123, Management Accountability and Control, Section 11, Standards for
Management Control, states that in relation to recording and documentation, "the documentation
for transactions, management controls, and other significant events must be clear and readily
available for examination."

Recommendations

We recommend that the Corporation obtain documentation that references the back file
conversion efforts and written confirmation from its contractor as to the completion of the file-
imaging task.

Investment Policies and Procedures

Adequate documentation of accounting policies and procedures should be maintained to
establish guidelines, define responsibilities, and provide internal accountability. Currently, the
Corporation does not have formal documentation of investment policies and procedures. Thus,
in the absence of the normally assigned personnel performing investment procedures, there are
no guidelines for another person to follow.

Recommendation

We recommend the Corporation review the informal investment management guidelines
currently in use to determine their adequacy, and develop formal written policies and procedures
to guide investment management activities in the future. Once developed, the policies and
procedures should be reviewed at least annually to ensure their continuing appropriateness in
light of the current economic environment.
Exhibit A                                                             Exhibit A, Continued

              FINDINGS AND RECOMMENDATIONS, Continued


General Ledger

The Corporation tracks each individual investment in its general ledger system as well as in a
subsidiary ledger (Quickbooks) that does not interface with the general ledger. This procedure is
an inefficient use of Corporation resources and results in data being entered twice and increases
the potential for errors.

Recommendation

We recommend that the Corporation consider eliminating the detail investment information
maintained in the general ledger and only include control totals. The Corporation should
continue to maintain detail investment information to support the general ledger totals in the
subsidiary ledger, and should implement procedures to reconcile the subsidiary to the general
ledger control total on a monthly basis to ensure proper reporting.

Documentation of Management Actions

Corporation management is not properly documenting certain significant management
accountability and control events. We found eight instances where management had made
decisions about major departmental projects but kept no record of decisions that were made. In
these instances, no written notification to management occurred when projects were completed,
or had been postponed or revised. Documentation provided, if any, was limited to electronic
mail that mentioned the fact that milestones were being met. Examples of events for which no
meaningful documentation exists are:

    Goal 3, Objective 2, Task 1 - Procurement and accounting office heads jointly develop
    contract data clean up plan and define criteria for contract close out.
    Goal 7, Objective, Task 4 - Assure internal mail system is compliant.
    Goal 8, Objective 3, Task 1 - Design interim DVSA grants system to replace Federal
    Success grant modules for award generation.

As a result of not documenting significant decisions, management may not able to support that
certain events occurred or report details of events that were purported to have occurred.
Management decisions should be promptly recorded and documentation maintained.

Recommendation

We recommend that Corporation senior management formally document significant decisions
and events and emphasize the importance of such documentation to all Corporation personnel.
They should also provide a working definition of "significant" in the context of the
Exhibit A                                                               Exhibit A, Continued

              FINDINGS AND RECOMMENDATIONS, Continued


Corporation's control environment and issues, and the preferred method for recordation and
filing.

General Control Environment

The following elements of a strong general control environment continue to require management
attention: (1) issuance of comprehensive policies and procedures, (2) enhancements to make the
self-assessment process of management controls more comprehensive, and (3) addition of a
Chief Information Officer position to address information technology issues.

Issuance of Comprehensive Polices and Procedures

During our review of the proposed tasks relating to issuing a comprehensive set of Corporation
policies and procedures, we noted that the tasks related only to "critical" policies and procedures.
"Critical" policies and procedures, as defined by the Corporation, are those that need to be issued
as a priority as a result of one of the following issues: (1) the authority of ACTION (policies and
procedures used prior to inception of the Corporation) has expired, (2) the existing policies and
procedures are inaccurate for the current operations of the Corporation, or (3) implementation of
current policies and procedures have generated numerous questions from Corporation personnel.
The Corporation identified 11 such "critical" policies and procedures to be addressed in fiscal
year 1999. Although the Corporation intends to address other policies and procedures, the
current task is not sufficiently comprehensive in nature.

The Corporation has identified a comprehensive list of policies and procedures which need to be
issued, and has developed the methodology to do so. However, it has encountered delays in
issuing the "critical" policies and procedures due to time required for the review and clearance
processes and, to some extent, difficulties encountered in implementing Momentum.
Exhibit A                                                               Exhibit A, Continued

               FINDINGS AND RECOMMENDATIONS, Continued


Recommendation

The Corporation should accelerate its efforts to develop and implement a comprehensive set of
policies and procedures. Additionally, we recommend that specific issue dates for all policies
and procedures, as well as training dates for the related policy writing training, be established
and managers be held accountable for timely completion of the tasks.

Management Control Plan

Our review of the task on establishing a formal management control plan revealed the following
matters which preclude the Corporation from implementing a comprehensive self-assessment
process:

    Grants management, which is a significant process for the Corporation, will conduct a self-
    assessment on a rotational basis with the frequency still to be determined;
    Information Technology general controls such as disaster recovery and access controls are
    not included in the self-assessment survey; and
    Not all assessable units will conduct self-assessments for fiscal year 1999.

We also noted that the Office of the Chief Operating Officer tracks and validates corrective
actions resulting from various audits. Additionally, the primary method used by the Chief
Operating Officer to track lower-level weaknesses is discussion at weekly staff meetings until
agreement is attained that the weakness has been corrected. There is no independent validation
fknction for verifying corrective actions.

OMB Circular A-123, Management Accountability and Control, states that management controls
are the organization's polices, and procedures used to reasonably ensure that 1) programs
achieve their intended results, 2) resources are used consistent with agency mission, 3) programs
and resources are protected from waste, fraud, and mismanagement, 4) laws and regulations are
followed, and 5) reliable and timely information is obtained, maintained, reported and used for
decision making.

The lack of a comprehensive self-assessment process may prevent the Corporation from
detecting weaknesses in internal controls in a timely manner.

Recommendation

The Corporation should include the information technology general control environment in the
management control plan self-assessment survey. Grants management, a significant process for
the Corporation, should be assessed annually. All assessable units should be initially surveyed
and, based on the results, the frequency of future assessments determined. Also, the Corporation
Exhibit A                                                               Exhibit A, Continued

              FINDINGS AND RECOMMENDATIONS, Continued

should implement an independent verification process as deficiencies are corrected to ensure
proper correction of weaknesses in internal controls.

Chief Information Oficer

The Corporation management infrastructure does not include a Chief Information Officer (CIO).
However, the Action Plan has as one of its goals to "use Information Technology to make
Corporation work processes more efficient and to better access data for policy and decision
making." The Director of the Office of Information Technology, who has maintained
information technology (IT) operations (activities such as management of systems maintenance
and development projects), does not have access to the strategic decision making level in the
Corporation.

Additionally, the Corporation has been in the midst of implementing a major new accounting
system, and has experienced a series of technical difficulties. In light of these difficulties, we
believe that it is even more critically important that a CIO be identified and hired to provide
focused oversight and lead the Corporation in achieving its current commitments in the
identification, selection, and implementation of technology solutions to information technology
needs.

The CIO should function as an integral part of the senior management team to ensure that both
business and technical needs are adequately addressed. The CIO should be responsible for
obtaining the resources for designing and implementing a sound IT internal control environment.
Also, the CIO should participate in setting the Corporation's strategic performance goals. The
objective of this participation is to provide candid and objective assessments of the limitations
and opportunities of IT in attaining corporate goals.

Recommendation

The Corporation should place a high priority on completing its search for a CIO.

Independent Validation and Verification Report

Our review of the Corporation's Independent Validation and Verification (IV&V) report for
Year 2000 compliance, prepared by an outside contractor, indicated that it may not be accurate
and complete in all respects. The IV&V report should provide management with an independent
conclusion as to whether the Corporation's Year 2000 remediation efforts have been performed
adequately. Sufficient details should be included in the report to support the conclusions
reached.

We reviewed the report dated August 3 1, 1999, supplied to the Corporation by its contractor.
Our review of the report was performed to determine whether certain facts characteristic of a
Exhibit A                                                               Exhibit A, Continued

              FINDINGS AND RECOMMENDATIONS, Continued


thorough Year 2000 compliance IV&V report were present. We used a limited application of
KPMG's Year 2000 Quality Assurance methodology used for evaluating Year 2000 compliance
efforts. We were not able to conclude whether all necessary tasks related to the report were
completed without reviewing the work of the contractor. However we did note the following:

   No specific identification was evident in the report of the separate test environment where the
   testing occurred. We found that the test regions were addressed but no system designators
   were identified. Readers would be unable to determine if the correct environment was used
   or whether the region used has peculiarities that would nullify Year 2000 testing, such as
   updated utilities not remediated in the production region.

   The report did not identify the universe of infrastructure within which items were identified
   for testing. Additionally, the untested portion of the infrastructure was not identified as
   compliant before the testing was performed (e.g., PC's, mid-tiers, mainframes, and
   networks).

   We could not determine whether the system clock was advanced to test interdependencies
   such as applications and utilities. Advancing the clock can detect failed interdependencies
   such as those between applications and utilities. We noted only the processing of test data
   with dates beyond the year-end date.

   The report did not discuss testing the applications with other high-risk dates. For example,
   leap year dates (212912000) are sometimes accommodated using special sub-routines that
   could be overlooked by a test scenario that does not introduce leap year dates for processing.
   We did note that the server and workstation BIOS had the benefit of leap year testing.

   The functions of input, processing, and output were tested, but not all functionality was
   identified to conclude that the whole application was tested (e.g., seldom used utilities and
   features).

    The interfaces tested were not completely explained concerning agreements with the data
    exchange partners. For example, we could not determine whether two-digit dates were
    acceptable to the receiving party. Also, the compliance method of converting the two-digit
    date by the receiving entity was not evident. If the receiving entity has a different method of
    converting two-digit dates, errors could occur.

    Some results indicated that the system was not compliant, but conclusions were made that the
    item was compliant. For example, the test scenarios for VISTA Management System
    indicated that the input screens accept only two-digit dates, returning 99 as 0099 in the
    database. This would be an indicator that VMS is not Year 2000 compliant. However, this
    area was reported as compliant.
Exhibit A                                                             Exhibit A, Continued

              FINDINGS AND RECOMMENDATIONS, Continued


The items discussed above are important for the Corporation to have reasonable assurance that
Year 2000 remediation efforts have reduced the risk of operational stoppages and service failures
as a result of system outages due to improper handing of cross-century transactions.

Recommendation

We recommend that the Corporation discuss the above observations with the contractor and
obtain suitable explanations. The report should be revised to include the information developed
to support the conclusions reached during the testing. Explanations should be entered where the
testing did not develop results that clearly show the applications will successfully process the
high risk dates (i.e., "Compliant with Recommendations").
                                                                                                                              Exhibit B


                                                     Corporation for National Service
                                                            Task Status Matrix
                                                Action Plan Status Report - August 21,1999

Introduction


The following Task Status Matrix outlines the procedures applied to assess the status of each task in accordance with the task order. These
procedures included the following procedures for assessing the status (the status assessment) of each objective:

1.   Obtain documentation on the status of the objective.
2.   Review documentation on the status and compare this to the status reported in the Action Plan Update.
3.   Conclude as to the status of the objective, and whether the status or progress reported is adequately documented.
4.   Follow-up with inquiries to appropriate Corporation personnel if the status is not adequately documented.

For certain objectives, additional procedures were applied as specified in Appendix 1 to the Task Order statement of work. Specific
procedures performed and the related results are detailed on the matrix.

Due to the nature of the procedures, our comments are based on review of relevant documentation, interviews with Corporation personnel,
and walkthroughs of processes, when applicable. Unless otherwise noted, the Corporation provided, and we reviewed, documentation to
support the completion of the task as noted.

In accordance with the task order, certain tasks were excluded from the scope of our work as they will either be covered in hture OIG audits
or the time frame for completing the tasks has passed (e.g., tasks related to issuing fiscal year 1998 financial statements). These tasks are
captioned "not included in the review" on the matrix.
                                                     Corporation for National Service
                                                            Task Status Matrix
                                                Action Plan Status Report - August 21,1999


Task               Task Description                                 Procedures                          Task Status/Observations
  #

Goal 1: Establish a strong and effective general control environment, including a commitment to excellence, organizational structure,
and assignment of authority and responsibility.


Goal 1 - Objective 1: Obtain an unqualified opinion on the Corporation's financial statements.

       Develop a comprehensive plan to correct     Not included in the review because the        Objective was not achieved. However, all
       material weaknesses and other reportable    outcome was already known. See                the tasks were completed as proposed.
       conditions                                  observation.                                  The audit of the fiscal year 1998 financial
                                                                                                 statements resulted in an unqualified
                                                                                                 opinion on the Statement of Financial
                                                                                                 Position and a disclaimer of opinion on
                                                                                                 the related Statement of Operations and
                                                                                                 Changes in Net Position and the
                                                                                                 Statement of Cash Flows.
       Monitor progress (formal report to
       Congress every 60 days)
       Prepare draft FY 1998 financial
       statements
       Inspector General issues audit of FY
       1998 financial statements
       Corporation issues audited FY 1998
       financial statements and Annual Report
Task               Task Description                                Procedures                     Task Status/Observations
  #

Goal 1 - Objective 2: Issue a comprehensive set of Corporation policies and procedures.

       Contact responsible officials to assess    The status assessment.                  Task was completed as proposed.
       existing policies and determine
       appropriate action (eliminate or
       reviseh-eissue)
       Receive feed back from responsible                                                 Task was completed as proposed.
       officials, including which new policies
       need to be written
       Develop schedule, format, clearance                                                Task was completed as proposed.
       process for issuance of Corporation
       policies and procedures
       Conduct training in policy writing                                                 Task was completed as proposed.
                                                                                          However, training has been developed for
                                                                                          the "critical" procedures only, which does
                                                                                          not include all policies and procedures
                                                                                          that will eventually be issued. We
                                                                                          recommend that the task actions and
                                                                                          completion dates be revised to reflect the
                                                                                          expected date of completion of all policies
                                                                                          and procedures that need to be issued.
                                                                                          Managers should also be held accountable
                                                                                          for ensuring that the relevant personnel
                                                                                          attend training at the time assigned.
       Critical new procedures issued                                                     Based on the task status it does not appear
                                                                                                                                - -
                                                                                          that the current completion date of
                                                                                          September 30, 1999 will be met. The due
                                                                                          date needs to be revised.

                                                                                          Upon completion of task 1, the
                                                                                          Corporation identified 11 policies as
                                                                                          critical that needed to be addressed during
                                                                                          fiscal year 1999; eight have been issued as
    Task
      #
           I             Task Description
                                                     I                    Procedures
                                                                                       I           Task Status/Observations
                                                                                                                                           I
           -
                                                                                           of the date of our review. "Critical"
                                                                                           policies were defined by the Corporation
                                                                                           as those policies that need to be issued as
                                                                                           a priority because the authority of
                                                                                           ACTION (policies and procedures used
                                                                                           prior to inception of the Corporation) has
                                                                                           expired, are inaccurate for the
                                                                                           Corporation, and have generated
                                                                                           numerous questions from Corporation
                                                                                           personnel. An additional 86 policies have
                                                                                           been identified for issuance at a later date.

                                                                                           The Action Plan does not include a date
                                                                                           for the issuance of a comprehensive set of
                                                                                           Corporation policies and procedures. We
                                                                                           recommend the Corporation establish a
                                                                                           task or revise the existing tasks that will
                                                                                           lead to the issuance of a complete and
                                                                                           comprehensive set of policies and
                                                                                           procedures and hold managers
                                                                                           accountable for ensuring timely
                                                                                           completion of their tasks relative to
-                                                                                          issuing policies and procedures.

    Goal 1 - Objective 3: Improve Corporation Infrastructure.

               Implement NAPA recommendation             The status assessment.            Task was completed as proposed.
               regarding appointment of a Chief
               Operating Officer
               Establish and implement new                                                 Task was completed as proposed.
               management team
-
Task              Task Description                             Procedures          Task Status/Observations
 #                                                                          -        -


 3     Revise and implement new organization   The status assessment.        Task was completed as proposed.
       structure                                                            However, the organizational chart does
                                                                            not reflect the CIO's position. Also, a
                                                                            follow up task to assess the effectiveness
                                                                            of the new management team is needed.
 4     Establish Executive Secretariat                                      Task was completed as proposed.
 5     Allocate FY 99 program administration                                Task was completed as proposed.
       fimds in support of urgent management                                Planned completion date was January 8,
       needs                                                                 1999; task was completed on January 22,
                                                                             1999.
 6     Appoint Chief Information Officer                                    Task is in process. Planned completion
                                                                            date of October 3 1, 1999 seems
                                                                            aggressive based on current task status.
                                                                            Original completion date was February
                                                                            28, 1999.
 7     Reorganize and establish Executive                                   Reorganization and establishment of
       Officers for improved budget and                                     Executive Officers was completed as
       management control                                                   proposed. Planned completion date was
                                                                            March 15, 1999; task was completed on
                                                                            July 16, 1999. We were unable to
                                                                            determine whether improved budget and
                                                                            management control has, or will be,
                                                                            achieved because sufficient time to assess
                                                                            results has not elapsed. A follow up task
                                                                            to assess effectiveness is needed.
 8     Review and update Corporation                                        Task has not been completed as proposed.
       delegations of authority                                             Planned completion date was April 30,
                                                                            1999.
Task                Task Description                                   Procedures                              Task Status/Observations

        CEO approval of updated delegations          The status assessment.                            Revised task completion date of August
                                                                                                       25, 1999, has expired and should be
                                                                                                       revised. Planned completion date was
                                                                                                       May 28, 1999. Task completion depends
                                                                                                       on completion of previous task to
                                                                                                       "Review and update Corporation
                                                                                                       delegations of authority."
       President announces intent to nominate                                                          Task was completed as proposed.
       CFO
       President nominates CFO                                                                         Task was completed as proposed.
       Senate confirms CFO                                                                             Task was completed as proposed.
       ion to assessing the status of the tasks under this objective, we   Results:
performed the following procedures:

   Obtain and document an understanding of the Corporation's               In general, the revisions in Corporation infrastructure to date should
   alignment of functions between headquarters, service centers and        strengthen the Corporation's infrastructure if effectively deployed.
   state offices (referred to as infrastructure) through interviews with   However, the Corporation lacks a CIO. Additionally, we recommend
   Corporate staff and reviewing Corporation documents,                    that the reporting alignment of the CFO directly to the COO be
   walkthroughs, and preparing write ups and flow charts of the            reconsidered. Due to the size and nature of the Corporation
   results as appropriate.                                                 operations, a more effective alignment might be for both the CFO and
   Review CIO selectee qualifications, compare it to the requirement       COO to report directly to the CEO.
   in the job announcement, and conclude whether the selectee is
   qualified for the position.                                             We were not able to review the CIO selectee qualifications, compare
   Interview the Corporation's Senior Management Team,                     them to the requirement in the job announcement, and conclude
   established June 22, 1998, to identify changes made to the              whether the selectee is qualified for the position. As of the date of our
   Corporate infrastructure and perceived improvements.                    review, the Corporation selected candidate declined acceptance of the
   Comment on revisions in Corporation infrastructure.                     position and the process is continuing with a new announcement.

                                                                           We also recommend that follow-up tasks be established to assess
                                                                           whether the overall objective has been met andlor determine whether
                                                                           further revisions are necessary.
Task               Task Description                                  Procedures          Task StatuslObservations
  #

Goal 1 - Objective 4: Implement an effective performance management system.




1       Develop Corporation-wide Annual Plan



       Obtain approval of Board of Directors
       Draft FY 2000 GPRA Performance Plan
                                                   Not included in the review.    The Corporation reported these tasks as
                                                                                  complete.
                                                                                  Implementation will be tested in future
                                                                                  OIG work.


       Include key financial management goals
       in FY 2000 performance plan
       Transmit FY 2000 GPRA Performance
       Plan to Conaess
       Prepare report on review of performance
       indicators
        Submit proposed unified plan and
       budget for FY 2001 to OMB

Goal 1 - Objective 5: Improve staff competencies through training.

       Establish training initiatives group       The status assessment.          Task was completed as proposed.
       Identify FY 99 corporate training needs                                    Task was completed as proposed.
       (most critical areas)
       Develop implementation plan and                                            Task was completed as proposed.
       training schedule for FY 99
       Develop implementation plan for FY 00                                      Task was completed as proposed.
                                                                                  Planned completion date was June 30,
                                                                                  1999. Task was completed on August 3 1,
                                                                                  1999.
Task               Task Description                                  Procedures                            Task StatusIObservations
  #                                                --
  5    Throughout year, conduct training for        The status assessment.                           Areas identified as key by the
       specific areas, e.g. ArneriCorps grant                                                        Corporation, such as grants monitoring
       monitoring, travel, etc.                                                                     and appropriations law training were not
                                                                                                    conducted by the planned completion date
                                                                                                    of September 30, 1999. Currently, training
                                                                                                    is scheduled for fiscal year 2000. The
                                                                                                    completion date needs to be revised.
       Provide training on financial accounting                                                     The current completion date of October
       and reporting requirements to appropriate                                                     15, 1999 will not be met, and needs to be
       accounting staff                                                                             revised. An outside contractor is
                                                                                                    scheduled to conduct training for
                                                                                                    accounting staff in fiscal year 2000.
                                                                                                    Overall, we recommend that follow up
                                                                                                    tasks be established to determine whether
                                                                                                    training resulted in an increased level of
                                                                                                    competencies as required by the objective.

Goal 1 - Objective 6: Consider business process re-engineering recommendations made in NAPA study.

       Set up task forces to review NAPA            Not included in the review. All planned tasks   The Corporation reported these tasks as
       recommendations                              for this objective are completed and the        complete.
                                                    Corporation issued its response to the NAPA
                                                    report in January 1999.
       Draft reports from task forces to CEO for
       review
       Issue response to NAPA
       recommendations
Task   I              Task Description                              Procedures                           Task Status/Observations


Goal 1 - Objective 7: Establish procedures to assess and report on Corporation management controls.

  1        For FY 98, obtain assurances from        The status assessment.                        Task was completed as proposed.
           managers of selected units that assess                                                 Planned completion date was January 3 1,
           management controls and identify                                                       1999. Task was completed on February 8,
           weaknesses                                                                             1999.
 2         Management determines Corporation-                                                     Task was completed as proposed.
           level weaknesses
2.1        Chief Operating Officer follow-up with                                                 Task was completed as proposed.
           respondents on lower-level weaknesses
 3         Issue FY98 management control report                                                   Task was completed as proposed.
           with financial statements
 4         Establish formal management control                                                   Task was completed as proposed.
           plan
 5         Conduct training on management                                                        Task was completed as proposed.
           controls for offices conducting
           assessments for FY 99
 6         Receive management control reports                                                    Task was completed as proposed.
           from managers of six offices
 7         Receive management control reports                                                    Task is in process.
           from managers of 10 more offices
Task                  Task Description                                Procedures            Task Status/Observations
  #

Goal 1 - Objective 8: Improve the audit resolution process.

           Revise and implement effective audit      The status assessment.         Revised audit resolution procedures were
           resolution procedures                                                    implemented. The effectiveness of these
                                                                                    procedures will be assessed as part of the
                                                                                    Fiscal Year 1999 financial statement audit
                                                                                    and other OIG audit procedures.
           Monitor timeliness of audit resolution                                   Task is in process. Planned completion
           and completion of corrective action                                      date is revised periodically to reflect the
                                                                                    next meeting date to review resolutions
                                                                                    and corrective actions.
                                                                                    Task was partially completed with the
                                                                                    establishment of the noted position. The
                                                                                    Corporation considers this task completed
                                                                                    with the establishment of task 4.
           Re-advertise position                                                    Task was completed as proposed. A
                                                                                    follow-up task is required to measure
                                                                                    achievement of open portion of Task 3.

Goal 1 - Objective 9: Implement effective employee performance management system.

       1 Issue guidance to supervisors to hold       The status assessment.         Task was completed as proposed.
       1 perfoAance reviews
         Issue instructions and procedures for 98-                                  Task was completed as proposed.
         99 performance evaluations and 99-00
       ' performance agreements
         Compensation Board decisions                                               Task is in process.
         Report to COO on completion of                                             Task is in process.
       I performance appraisal process
Task                Task Description                                  Procedures                    Task Status/Observations
  #

Goal 2: Ensure the integrity of the National Service Trust, accurately recording member information and service award liability, and
efficiently processing transactions related to enrollment and award processing.


Goal 2 - Objective 1: Improve the quality of historic records in the Trust

       Electronically capture through imaging       The status assessment.                   Task was completed as proposed.
       technology all existing Trust file                                                    Planned completion date was March 3 1,
       documents.                                                                            1999. Task was completed on August 9,
                                                                                             1999.
       Analyze historical files electronically to                                            Task is in process. Planned completion
       determine where records could be                                                      date was June 30, 1999. An exact date for
       improved and develop implementation                                                   the task completion has not been
       plan                                                                                  determined. The Corporation needs to
                                                                                             revise the completion date of the task.
       Improve the historic files                                                            Task has not begun, because it is
                                                                                             dependent on the completion of Task 2.
                                                                                             Based on the current status of Task 2, the
                                                                                             completion date for task 3 of December
                                                                                             3 1, 1999, will likely not be met and
                                                                                             should be revised.
Task    I              Task Description                                 Procedures                              Task Status/Observations
  #     1
In addition to assessing the status of the tasks under this objective, we   Results:
performed the following procedures:

      Obtain and document an understanding of the Corporation's             The task to electronically capture Trust file documents was
      procedures for electronically capturing and analyzing Trust file      subcontracted to an outside contractor. We recommend that the
      documents by interviewing Corporation staff, reviewing                Corporation supplement the document imaging technology with a
      Corporation documents, performing walkthroughs, and preparing         user's manual and relevant system documentation. Additionally the
      write ups and flow charts for the results as appropriate.             Corporation should obtain documentation that references the back file
      Review and comment on the historical analysis performed under         conversion efforts as well as written confirmation fi-om the
      the Action Plan and the related recommendations. Determine the        subcontractor as to the completion of the task.
      extent of improvements (actual or projected) in historical Trust
      files resulting fiom the Action Plan.                                 Since the Corporation is still in the process of completing an analysis
                                                                            of historical files, we were unable to review and comment on the
                                                                            results of the historical analysis.



Goal 2 - Objective 2: Improve the timeliness and quality of the Trust's service to ArneriCorps members.

            Provide phone coverage services through The status assessment.                              Task was completed as proposed.
            an outside vendor
            Provide data verification services through                                                  Task was completed as proposed.
            GSA schedule temporary services firm                                                        Planned completion date was January 5,
                                                                                                        1999. Task was completed on March 1,
                                                                                                        1999.
            Begin to image enrollment forms and                                                         Task was completed as proposed.
            end-of term forms                                                                           Planned completion date was February 28,
                                                                                                        1999. Task was completed on March 22,
                                                                                                        1999.
            Begin to image all the remaining forms                                                      Task was completed as proposed.
                                                                                                        Planned completion date was February 28,
                                                                                                        1999. Task was completed on July 15,
                                                                                                        1999.
Task                   Task Description                                Procedures          Task Status/Observations
  #
 4.1       Be able to retrieve enrollment forms and    The status assessment.       Task was completed as proposed.
           end-of-term forms electronically
 4.2       Be able to retrieve all other forms                                      Task was completed as proposed.
           electronically                                                           Planned completion date was March 15,
                                                                                    1999. Task was completed on July 15,
       I
                                                                                    1999.
  5    1 Utilize electronic workflow software for                                   Task was completed as proposed.
           Trust processing and workload
           management
  6        Recruit and select FTE for data                                          Task was completed as proposed.
           verification.
  7        Develop management reports using new                                     Task was completed as proposed.
           imaging workflow software


Goal 2 - Objective 3 Improve the quality and timeliness of Trust data.

           Reorganize Trust staff to align             The status assessment.       Task was completed as proposed.
           individuals responsible for data quality
           with a defined set of programs
           Begin to provide rosters quarterly to state                              Task was completed as proposed.
           commissions by mail, and to programs by                                  Planned completion date was April 30,
           fax                                                                      1999. Task was completed on May 21,
                                                                                    1999.
           Monitor receipt of corrected rosters from                                Task is considered completed as
           States to Corporation                                                    proposed, due to establishment of ongoing
                                                                                    process.
           Follow-up calls on delinquent rosters                                    Task is considered completed as
                                                                                    proposed, due to establishment of ongoing
                                                                                    process.
           Complete review of rosters and input                                     Task is considered completed as
           corrections in system                                                    proposed, due to establishment of ongoing
                                                                                    process.
Task               Task Description                                  Procedures           Task Status/Observations
 #
       Begin to send letters to all new enrollees    The status assessment.       Task was completed as proposed.
       to verifL data in the Trust database

       Systematically resolve past year open                                      Task is in process.
       data (including those members from
       program years 94 and 95)
       Upon availability of requested FY 2000                                     Task is dependent on appropriation
       appropriations, initiate efforts to enhance                                receipt. Therefore, the established
       Trust system edit checks                                                   completion date of October 1, 1999,
                                                                                  cannot be met, and should be revised.

                                                                                  The Trust has edit checks. However, the
                                                                                  development of additional edit checks is
                                                                                  dependent on fiscal year 2000
                                                                                  appropriations.
       Distribute quarterly rosters                                               Task is considered completed as
                                                                                  proposed, due to the establishment of an
                                                                                  ongoing process.

                                                                                  We noted that no further tasks have been
                                                                                  identified to ensure proper follow up
                                                                                  similar to the previous mailing of the
                                                                                  roster. The Corporation needs to ensure
                                                                                  that procedures are in place to monitor the
                                                                                  receipt and the follow up on delinquent
                                                                                  rosters related to the quarterly mailings.
Task     I            Task Description                                   Procedures                              Task Status/Observations
  #      I
In addition to assessing the status of the tasks under this objective, we    Results:
performed the following procedures:

       Obtain and document an understanding of the Corporation's             The Corporation does not use statistics from the database to monitor
      procedures for maintaining the Trust database by interviewing          error rates. Currently all forms are scanned into the database. The
       Corporation staff, reviewing Corporation documents, performing        system has edit checks to identify forms with errors. The forms that
      walkthroughs, and preparing write ups and flow charts of the           are flagged are routed to Trust staff for follow-up. The Trust Director
      results as appropriate.                                                reviews a report that reflects manual changes made to the system as a
      Determine from data maintained in the Trust h d Database, the          result of the staff follow-up.
      response rate for letters sent to enrollees for verifLing Trust data
      during fiscal year 1999.                                               The Trust database has a feature to automatically send verification
      Evaluate the effectiveness of the letters in validating the Trust      forms to new enrollees. New enrollees are not required to respond to
      database by comparing a sample of responses to the related             the Corporation unless they have changes.
      database records.
      Determine if the Corporation uses statistics from the database to      We were unable to determine the effectiveness of the letters for
      monitor error rates (i.e. by program site, type of exception -         validating the Trust database. We recommend the Corporation
      incorrect enrollment date, completion date) and correct conditions     consider the benefits of tracking the nature and rate of member
      identified, and comment on the accuracy and validity of any such       responses as an effective performance measure.
      activities.
      Determine the status of Corporation efforts to resolve errors          Based on our review of the Corporation's error resolution process, we
      related to members who are listed in the database as continuing to     noted the majority of the open data from fiscal years 1994 and 1995
      earn awards, yet for whom the period for service completion has        has been dispositioned in the system. For the remaining prior year
      lapsed and an end of term form, or other notice of service             data, for which the Corporation has determined that hrther follow up
      termination, has not been received.                                    :annot be performed, a decision on appropriate disposition needs to
                                                                             be made.
Task   I               Task Description                                 Procedures                       Task Status/Observations
  #    I
Goal 2 - Objective 4: Improve the quality and timeliness of Trust data coming from state commission programs.

           Continue work on a system utilizing the      The status assessment.                   Task was completed as proposed.
           Internet (a Web Based Reporting
           System - WBRS, version 1.5) for state
           commission programs to manage
           member participation and, through edit

           controls, ensure accurate information is
           captured upon enrollment                                                                                                          -
           Pilot the use of WBRS in a limited                                                    Task was completed as proposed.
           number of states                                                                                                                  -
           Pilot the transfer of enrollment data from                                            Task was completed as proposed.
           WBRS to the trust system electronically                                                                                           -
           Increase the number of state                                                          Task is in process. However, the
           commissions using WBRS and                                                            completion date of October 1, 1999 for
           transferring data electronically until all                                            participation of all state commissions is
           state commissions are participating                                                   not realistic and should be revised.

                                                                                                 The Corporation anticipates that by the
                                                                                                 end of November, all state commissions,
                                                                                                 except for Oregon, and all National
                                                                                                 Directs will be using WBRS. We
                                                                                                 recommend the Corporation define what
                                                                                                 actions need to be specifically
                                                                                                 accomplished for this task to be
                                                                                                 considered complete.




                                                                                                                                             -
Task               Task Description                               Procedures                             Task Status/Observations

       Add the electronic transfer of changed     The status assessment.                         Task is in process.
       data and end of term information to the
       Trust database                                                                            End-of-term forms are in the database.
                                                                                                 Currently, there is no electronic interface
                                                                                                 for change-of-status forms entered into
                                                                                                 WBRS to automatically transfer data to
                                                                                                 the Trust database. The Corporation is in
                                                                                                 process of developing such interface.
       Assess the implementation of WBRS in                                                      Task is in process.
       selected pilot states, including on-site
       review of selected program sites                                                          The two initial pilot states were assessed
                                                                                                 to determine any glitches in the WBRS
                                                                                                 system before the Corporation decided to
                                                                                                 deploy WBRS . This task relates to re-
                                                                                                 evaluating those two sites as well as the
                                                                                                 additional eight added as pilot sites. The
                                                                                                 preparation of a draft report is in process.

Goal 2 - Objective 5: Examine and strengthen procedures for AmeriCorps service hour reporting.

       Conduct training sessions for              The status assessment.                         Task was completed as proposed.
       commission staff and national non-profit
       grantees on reporting standards and
       procedures
       Issue proposed regulations related to                                                     Task was completed as proposed.
       consistency of treatment of AmeriCorps                                                    Planned completion date was February 28,
       members released for "compelling                                                          1999. Task was completed on April 9,
       personal circumstances"                                                                   1999.
       Issue final regulations on "compelling                                                    Task was completed as proposed.
       personal circumstances"
       Eliminate the 95% rule (members who                                                       Task was completed as proposed.
       complete 95% of their service are eligible
       for a full education award)
Task    I               Task Description                                Procedures                         Task Status/Observations
  #     I
In addition to assessing the status of the tasks under this objective, we   Results:
performed the following procedures:

      Obtain and document an understanding of the corrective actions   We determined that the corrective actions proposedtaken by the
      proposedtaken by the Corporation in response to OIG report, 98- Corporation in response to OIG report 98-19, Assessment of
      19, Assessment of AmeriCorps Service Hour Reporting by           AmeriCorps Service Hour Reporting should adequately address the
      interviewing Corporation staff, reviewing Corporation documents, noted deficiencies, if AmeriCorps staff and members comply with
      performing walkthroughs, and preparing write ups and flowcharts stated policies and procedures.
      of the results as appropriate.
      Determine of the actions taken adequately address the reported
      deficiencies.




Goal 2 - Objective 6: Improve the management of Trust investments.

            Update outside expert advice obtained at   The status assessment.                      Task was completed as proposed.
            Trust's inception on investment strategy
            and procedures
            Prepare an annual plan of Trust                                                    I Task is considered completed as
            investments and monitor progress                                                   I proposed, due to establishment of an
            quarterly                                                                              ongoing process.
            Throughout year, periodically update                                                   This task will not meet its completion date
            investment policies and procedures and                                             I   of September 30, 1999, and should be
            publish on Corporation Intranet site                                                   revised.
            Prepare options paper and proposed                                                     Task was completed as proposed.
            language for OMB review
Task    I            Task Description                                   Procedures                              Task Status/Observations
  #     I
In addition to assessing the status of the tasks under this objective, we   Results:
performed the following procedures:

      Obtain and document an understanding of the Corporation's             Formal investment policies and procedures are not documented. The
      procedures for managing the Trust investments by interviewing         Corporation should review the informal policies developed by the
      Corporation staff, reviewing Corporation documents, performing        investment manager and determine whether to adopt them as formal
      walkthroughs, and preparing write ups and flowcharts of the           policies.
      results as appropriate.
      Review the annual investment plan and quarterly progress reports,     The Corporation tracks each individual investment in its general
      assess whether the Corporation's investments maximize Trust           ledger system (GL) as well as in a subsidiary ledger that does not
      fund earnings and maintain adequate cash flow to make timely          interface with the GL. The Corporation should consider eliminating
      payments from the Trust.                                              the detail investment information in the GL and only include control
      Review and comment on the adequacy of the investment policies         totals. The Corporation should continue to maintain detail investment
      and procedures.                                                       information to support the GL control totals, in the subsidiary ledger.
      Review and comment on the options paper and proposed language         Procedures to reconcile the subsidiary to the GL control total on a
      prepared for OMB.                                                     monthly basis should be implemented.

                                                                            To date, the Trust has maintained adequate cash flow to make timely
                                                                            payments from the Trust. However, the Trust may not be maximizing
                                                                            investment earnings, as the portfolio manager is not a professional
                                                                            investment manager. The Trust should consider obtaining
                                                                            professional investment advice to provide additional assurance that
                                                                            investment earnings are maximized.

                                                                            If OMB does not concur with the Corporation on the Options paper,
                                                                            which proposes to use Trust funds to obtain professional investment
                                                                            advice, the cost of obtaining investment advice should be funded
                                                                            through program administration funds, to the extent investment yield
                                                                            is sufficient to cover the costs incurred.
) Task   I               Task Description                                 Procedures                Task Status/Observations


 Goal 3: Improve stewardship of federal funds and accuracy of Corporation accounting records through use of electronic media.


 Goal 3 - Objective 1: Reconcile fund balance with Treasury.

                                                         The status assessment.             Task was completed as proposed.

                                                                                            Task was completed as proposed.
             to Accounting on investments with
             Treasury
   3         Issue schedule for timely preparation and                                      Task was completed as proposed.
             submission of monthly Statement of
             Transactions to Treasury
  4          Determine cash adjustments to be made                                          Task is in process. Planned completion
             based on the first SF-224 produced from                                        date was July 8, 1999. Revised
             Momentum and report on SF-224 to                                               completion date of October 8, 1999, is




n
             Treasury                                                                       likely not to be met, and should be revised
                                                                                            again.
             Throughout year, review Statement of                                           Based on the current status of the task it is
             Differences and identify adjustments by                                        unlikely that this task will meet its current
             end of every month                                                             completion date October 15, 1999. The
                                                                                            Corporation should revise the date.
  6          Throughout year, report monthly to                                             Based on the current status of the task the
             Treasury on cash adjustments resulting                                         completion date of September 30, 1999
             from data cleanup activities                                                   should be revised. The Corporation also
                                                                                            needs to determine what specific action
                                                                                            needs to be completed in order to consider
                                                                                            this task complete.
Task     I           Task Description                                   Procedures                             Task Status/Obsewations
  #      I                                                                                            I

In addition to assessing the status of the tasks under this objective, we   Results:
performed the following procedures:

      Obtain and document an understanding of the Corporation's             Written notifications that were sent from Trust Fund personnel to
      procedures for reconciling Fund Balance with Treasury by              Accounting in order to inform them of investment activity appear to
      interviewing Corporation staff, reviewing Corporation documents,      be in accordance with the Plan.
      performing walkthroughs, and preparing write ups and flowcharts
      of the results as appropriate.                                        The Corporation's schedule of submission and reconciliation dates for
      Confirm that the following are being prepared in accordance with      the monthly Statement of Transaction reports appears to have been
      the Plan:                                                             completed in accordance with the Plan.
          Notification by Trust Fund to Accounting on investments with
           Treasury;                                                        The new financial management system (Momentum) went live on
           Schedule for preparation and submission of monthly statement     September 13,1999. As of September 1999, no SF-224 reports were
          of transactions to Treasury;                                      prepared based on information stored in Momentum; however, the
           Cash adjustments based on first Momentum and reported on         Corporation intends to submit a Momentum based SF-224 report to
          July SF-224 to Treasury;                                          Treasury by the 10108199 deadline. We cannot determine whether the
          Monthly Statement of Differences; and                             Corporation will meet this due to the timing of our review.
          Monthly report to Treasury on cash adjustments.
      Verify that the adjustments to reconcile Fund Balance with            The Corporation has been unable to identify differences reported on
      Treasury determined as part of the data clean up project are posted   its Statement of Differences report. In March 1999, the Corporation's
      to the general ledger.                                                Appropriation Location Code (ALC) changed. Necessary
                                                                            zdjustments were not made in Federal Success to report grant
                                                                            transactions using the new ALC. We reviewed letters submitted to
                                                                            rreasury by the Corporation requesting that all transactions be
                                                                            transferred from the old to the new ALC, or at a minimum,
                                                                            information needed to resolve differences reported on the Statement
                                                                            3f Differences be provided to them. The Corporation is still awaiting
                                                                            3 response from Treasury.


                                                                            The Corporation will not be able to send monthly reports to Treasury
                                                                            )n cash adjustments by 09/30/99 because its primary focus has been
                                                                            :o populate Momentum with the appropriate data during September.
( Task    I               Task Description                                 Procedures                               Task Status/Obsewations
                                                                                                        I

                                                                              During May 1999, the Corporation began preparing monthly Fund
                                                                              Balance with Treasury cash reconciliations. We reviewed the
                                                                              adjustments that were identified on the Corporation's monthly Fund
                                                                              Balance with Treasury cash reconciliations for the months of January
                                                                               1999 to July 1999. We were able to verify that some adjustments
                                                                              were posted to the general ledger, yet a few adjustments still remained
                                                                              outstanding on the reconciliations. As previously noted, the
                                                                              Corporation has been unable to identify adjustments on the monthly
                                                                              Statement of Differences report because of the problems with posting
                                                                              transactions to the old ALC number. Because the Corporation has
                                                                              been unable to resolve these differences, it has also been unable to
                                                                              post necessary adjustments to the general ledger.

I   Goal 3 - Objective 2: Perform data clean up in preparation for conversion to new accounting system.

              Procurement and Accounting  - Office        The status assessment.                            The Corporation considered the task
              Heads jointly develop contract data                                                           completed as proposed. However, the
              clean-up plan and define criteria for                                                         Corporation was unable to provide
              contract closeout                                                                             supporting documentation to substantiate
                                                                                                            the completion.
              Reconcile and initiate adjustments to                                                         Overtaken by task 2.1 and 2.2 below.
              contract data prior to implementation                                                         Planned completion date was April 16,
                                                                                                            1999.
              Reconcile approximately 25% of                                                                Task was completed as proposed.
              contracts totaling $15.7 million prior to
              implementation
              Reconcile smaller contract amounts to                                                         Task is in process.
              new financial system
Task                   Task Description                                    Procedures           Task Status/Observations
  #
  3        Grants and Accounting offices jointly           The status assessment.       The Corporation considered the task
           develop grant data clean up plan and                                         completed as proposed. However, the
           establish criteria for financial closeout                                    Corporation was unable to provide
                                                                                        supporting documentation to substantiate
                                                                                        the completion. Planned completion date
                                                                                        was January 11, 1999. Task was
                                                                                        completed on February 16, 1999.
 4         Reconcile and adjust grant data prior to                                     Overtaken by task 6 below. Planned
           implementation                                                               completion date was April 16, 1999.
 5         Make adjustments to accounting records                                       Overtaken by task 6 below. Planned
           based on analysis                                                            completion date was May 14, 1999.
           Perform reconciliation of grants in HHS-                                     Task is in process. Planned completion
           PMS system with accounting system                                            date was May 2 1, 1999; revised
                                                                                        completion date is December 3 1, 1999.
           Perform first monthly reconciliation with                                    Task is in process.
           Trust and VMS; identify discrepancies
           and track to ensure resolution completed
           Prepare first monthly status report to                                       Task is in process.
           Accounting Director on issues identified
           with Momentum implementation,
           recommend solutions, dates for
           completion, etc.

Goal 3 - Objective 3: Make payments via Electronic Funds Transfer (EFT)

 1     1 Inform VISTA volunteers of ability to         I The status assessment.         Task was completed as proposed.
           convert to EFT
 2         Send follow up notifications to VISTA                                        Task was completed as proposed.
       1   volunteers not responding                   1
 3         Second follow up to non-respondents                                          Task was completed as proposed.
 4         Notify Corporation vendors, contractors                                      Task was completed as proposed.
           and grantees of EFT requirements
           Revise PSO training agenda to include                                        Task was completed as proposed.
           emphasis on EFT
( Task     I              Task Description                                  Procedures                            Task Status/Obsewations
      #                                                                                                    --


      6        Throughout year, monitor progress in       The status assessment.                           Task was completed as proposed.
               converting recipients to EFT
                                                                                                           However, we recommend the Corporation
                                                                                                           define what actually needs to be
                                                                                                           completed in order for the task to be
                                                                                                           considered complete.
    In addition to assessing the status of the tasks under this objective, we   Results:
    performed the following procedures:

    1. Obtain and documents an understanding of the Corporation's               The Corporation attempted to comply with Treasury's EFT
       procedures for EFT by interviewing Corporation staff, reviewing          conversion goals. However, because many contracts were executed
       Corporation documents, performing walkthroughs, and preparing            prior to October 1998, it has been difficult to comply fully with
       write ups and flowcharts of the results as appropriate.                  Treasury's initial goals. However, the Corporation has been tracking
    2. Determine the level of EFT payments and compare to the                   the total number of EFT disbursements made on a monthly basis. Per
       Corporation's goals for converting payees to EFT.                        review of the Corporation's EFT payment schedule, grant
                                                                                disbursements made with EFT increased 85% from October 1998
                                                                                through July 1999. The number of non-grant EFT disbursements
                                                                                increased approximately 50% from October 1998 to July 1999.


    Goal 3 - Objective 4: Improve cash management

I     1   1 Publish proposed Debt Collection             The status assessment.                            Task was completed as proposed.
           regulations
      2    Finalize debt servicing agreement with                                                         Task was completed as proposed.
           Treasury
      3    Update internal debt collection                                                                Task was completed as proposed.
           procedures
     4     Develop procedures for direct deposit                                                          Task was completed as proposed.
           and convenience checking in lieu of
           Imprest Fund
      5    Based on new debt collection procedures,                                                       Task was completed as proposed.
           send dunning letters to delinquent
           debtors advising that debt is due
Task    I            Task Description                                   Procedures                              Task Status/Observations
  #     I                                                                                              I

In addition to assessing
                       - the status of the tasks under this objective, we   Results:
performed the following procedures:

      Obtain and document an understanding of the Corporation's             The Corporation's notification letter to delinquent debtors follows the
      procedures for cash management by interviewing Corporation            FMS format. In addition, the Corporation may want to forward some
      staff, reviewing Corporation documents, performing                    delinquent debts to another collection agency, as well as to T-FMS.
      walkthroughs, and preparing write ups and flowcharts of the           This will help the Corporation more accurately gauge the potential
      results as appropriate.                                               collection rate for its delinquent debt. The monthly FMS status
      Review and comment on the adequacy of the debt servicing              reports, which provides collection activities and accounting for
      agreement with Treasury.                                              charges and fees, will also aid the Corporation in its estimation of the
      Determine that letters are being sent delinquent debtors.             allowance for doubtful account balance.
      Review and comment on the adequacy of Corporation's
      procedures for analyzing and controlling receivables.                 We scanned the files for delinquent debts located in the AFMS office.
                                                                            We reviewed demand letters that were sent to debtors because of
                                                                            service award overpayments, outstanding grant advances, and Cost
                                                                            Share reimbursement debts. Based on the review of the files, it
                                                                            appears that letters are being sent to delinquent debtors.

                                                                            We reviewed the adequacy of the Corporation's procedures for
                                                                            analyzing and controlling receivables. If Momentum does not allow
                                                                            grants to be monitored appropriately, Grants Officers should be
                                                                            required to submit status reports of open grants. This will allow the
                                                                            Corporation to take appropriate action timely to collect on outstanding
                                                                            balances of grants with changed or unusual balances.
                   Task Description                                 Procedures                            Task Status/Obsewations


Goal 3 - Objective 5: Implement certification of monthly fund balance reviews.

       Budget holder review and certify            Not included in the review.                    The Corporation considers these tasks in-
       unliquidated balances on a monthly basis                                                   process.
       beginning with FY 2000                                                                     Implementation will be tested in future
                                                                                                  OIG work.
       Perform first monthly closeout of
       obligations; generate special reports of
       possible transactions for closeout by
       budget holders and advise top
       management of progress or problems
       Generate first quarterly report of
       obligations and perfom analysis on data
       to detect unnecessary outstanding
       unliquidated balances and take actions to
       reduce such balances as appropriate

Goal 4: Create a single grants management program-from application through evaluation, award, administration and close-out-
that provides stewardship over Federal funds in a cost effective manner.



r
Goal 4 - Objective 1: Re-engineer the Corporation's grants processes to achieve workload efficiencies and improve customer service.

  1
              -



       Review NAPA report and prepare
       recommendations for CEO on grants
                                                   The status assessment.                         Task was completed as proposed.
                                                                                                  Planned completion date was December
       processes and policies                                                                     12, 1998. Task was completed on January
                                                                                                  28, 1999.
  2    "Map" the Corporation's current grant                                                      Task was completed as proposed.
       processes for VISTA and NSSC
  3    "Map" the Corporation's current grant                                                     Task was completed as proposed. Planned
       processes for NCSA grants                                                                 completion date was January 15, 1999.
                                                                                                 Task was completed on February 1, 1999.
         I
( Task                   Task Description                                   Procedures              Task Status/Observations
                                                                                                                                        1
             Review current processes based on the          The status assessment.           Task is not completed as planned due to
             "map," identify redundancies,                                                   delays with senior management review.
             inefficiencies and gaps, and prepare                                            The planned completion date of May 15,
             recommendations for change                                                       1999 and the revised completion date of
                                                                                             September 30, 1999, were missed. A new
                                                                                             completion date should be established.
             Examine the ArneriCorps grants process                                          Task was completed as proposed. We
             for formula programs and make                                                   recommend a follow-up task to determine
             recommendations for                                                             disposition of the recommendations and,
             improvement/simplification                                                      to the extent that recommendations are
                                                                                             implemented, determine if
                                                                                             improvement/simplificationwas achieved.
             Implement fixed grant award policies for                                        Task was completed as proposed.
             ArneriCorps Promise Fellows


             Revise the process for review and award                                         Task was completed as proposed.
             of 1999 commission administrative                                               Planned completion date was January 3 1,
             funds, PDAT & disability grants to                                              1999. Task was completed on March 15,
             improve efficiency                                                              1999. A follow-up task should be
                                                                                             established to determine whether goal of
                                                                                             making awards withm 30 days of receipt
                                                                                             of application has been achieved.
             Issue final regulations for three Senior                                        Task was completed as proposed.
             Corps vromams



  1      I Establish a timeline for issuing FY 99       I The status assessment.         I Task was completed as proposed.
         I program
              - awards on an earlier schedule           I                                I
  2
             *


         1 Throughout year, regularly monitor                                            I Task was completed as proposed.
           comprehensive timeline
  3        Develop an executive reporting system                                             Task was completed as proposed.
         I for mant awards                              I                                I
Task   I               Task Description                                 Procedures           Task Status/Observations

           Develop a consolidated timeline for         The status assessment.        Task was completed as proposed.
           FYOO NCSA grant cycle that supports
           earlier award processes                                                   We recommend that a follow-up task be
                                                                                     established to determine if the revised
                                                                                     timeline resulted in earlier award
                                                                                     processes.
           Complete the revision of grant                                            Task was completed as proposed.
           application guidelines for FY 00 program                                  Planned completion date was July 1,
           Year                                                                      1999. Task was completed on September
                                                                                     24, 1999.

Goal 4 - Objective 3: Enhance monitoring activities.

           Conduct training program for NCSA           The status assessment.        Task was completed as proposed.
           grantees on program and financial
           administration
           IdentifL NCSA site visits based on                                        Task was completed as proposed.
           defined risk assessment criteria
           Develop and implement A- 133 (Single                                      Task is in process. Planned completion
           Audit) procedures for Corporation grant                                   date was May 15, 1999.
           programs
           Conduct assessment of two state                                           Task was completed as proposed.
           commissions
           Conduct on-site assessment of four                                        Task was completed as proposed.
           additional state commissions
           Evaluate and modify draft administrative                                  Task is in process.
           standards as necessary based on six state
           assessments
           Develop FY 00 monitoring plans for                                        Task is in process.
           AmeriCorps and Learn and Serve grants
           project, subject to FY 00 appropriations
                   Task Description                                Procedures                            Task Status/Observations

       Throughout year, monitor                 The status assessment.                          Task is in process.
       implementation of new policy requiring a
       compliance monitoring site visit once
       every three years for 1200 Senior Corps
       grants

Goal 4 - Objective 4: Develop and implement closeout procedures for grants and cooperative agreements.

       Discuss with current grantees policies      The status assessment.                       Task was completed as proposed.
       and strategies to end current awards
       Draft, coordinate with Accounting, and                                                   Task was completed as proposed.
       issue interim policies and procedures for                                                Planned completion date was February 28,
       close out of NCSA grants                                                                 1999. Task was completed on March 3 1,
                                                                                                1999.
       Close out Commission on National and                                                     Task was completed as proposed.
       Community Service (Subtitle C & D                                                        Planned completion date was March 3 1,
       grants)                                                                                  1999. Task was completed on June 1,
                                                                                                1999. For purposes of grants operations
                                                                                                this task is complete. However, there are
                                                                                                three grants that are pending final closeout
                                                                                                as grants management is awaiting final
                                                                                                resolution.

       Complete close out of remaining                                                          Task is in process. Planned completion
       Commission on National and Community                                                     date was June 30, 1999. Revised
       Service grants (Subtitle B)                                                              completion date is November 30, 1999.
       Complete the close out of expired NCSA                                                   Task is in process. Planned completion
       awards (except for open awards due to                                                    date was June 30, 1999. Based on the
       audits or investigations)                                                                status of the task the revised completion
                                                                                                date of September 30, 1999 should also be
                                                                                                revised.
Task    I              Task Description                                 Procedures                                Task Status/Observations
  #     I                                                                                              I

In addition to assessing the status of the tasks under this objective, we   Results:
performed the following procedures:

      Obtain and document an understanding of the Corporation's             Currently, the closeout procedures are only guidelines. We
      procedures for closing out grants and cooperative agreements by       recommend that the Corporation codify the guidelines as policies and
      interviewing Corporation staff, reviewing Corporation documents,      procedures as soon possible.
      performing walkthroughs, and preparing write ups and flow charts
      of the results as appropriate.                                        Subtitle C and D grants closeout has been completed with three grants
      Review and comment on the status of required close-outs for the       pending final close out resolution. There were approximately 200
      following Corporation programs:                                       CNCS grants comprising Subtitle B, E and Summer of Service that
          Subtitle C and D grants;                                          needed to be closed out. Of these, 80 have been closed out to date.
          Commission on National and Community Service (Subtitle B)         The Action Plan only tracks the closeouts for subtitle B grants with a
          grants; and                                                       population of 151 grants. NCSA award population is yet to be
          Expired NCSA awards.                                              determined by the Corporation. We recommend that the Corporation
                                                                            accelerate its efforts in closing out these grants and also track Subtitle
                                                                            E and Summer of Service grants in the Action Plan.

Goal 4 - Objective 5: Automate the cost-share billing system.

            Develop a cost-share module for VMS     I The status assessment.                               Task was completed as proposed.
            system
            Test the new module in Chicago and                                                             Task was completed as proposed.
            Philadelphia service centers
            Identify problems and implement                                                                Task was completed as proposed.
            modifications                                                                                  Planned completion date was January 29,
                                                                                                           1999. Task was completed on March 12,
                                                                                                           1999.

                                                                                                           Task was completed as proposed.
                                                                                                           Planned completion date was February 19,
                                                                                                           1999. Task was completed on March 26,
                                                                                                           1999.
( Task    I              Task Description                                 Procedures                  Task Status/Observations
      #
      5       Complete Documentation and user            The status assessment.               Task was completed as proposed.
              manuals                                                                         Planned completion date was March 12,
                                                                                              1999. Task was completed on April 22,
                                                                                              1999.
      6       Train service center staff on new system                                        The Corporation considers the task
                                                                                              completed as proposed. However, the
                                                                                              Corporation was unable to provide
                                                                                              supporting documentation to substantiate
                                                                                              the completion. Planned completion task
                                                                                              was April 1, 1999. Task was completed
                                                                                              on April 30,1999.
      7   1 Implement the new system in all service I                                         Task was completed as proposed.
              centers for 2ndquarter statements
      8       Issue 2naauarter statements                                                     Task was completed as proposed.

    Goal 5: Corporation accounting data is recorded in a Year 2000-compliant financial management system that meets Federal system
    standards.


    Goal 5 - Objective 1: Implement new financial management system.

r
l         1 Momentum selected as new financial           Not included in the review.          The Corporation reports most of these
              management system                                                               tasks as complete.
                                                                                              Implementation will be tested in future
                                                                                              OIG work.
    2.1   Configure on-line documents in
          Momentum
    2.2 Configure interface and conversion
I       I documents
          Develop test plans
          Test online document processing
          Complete VMS interface
          Draft Momentum user manual
1   6.1 1 Issue final Momentum user manual
                  Task Description                                Procedures                       Task Status/Observations

       Begin system testing                      Not included in the review.                The Corporation reports most of these
                                                                                            tasks as complete.
                                                                                            Implementation will be tested in future
                                                                                            OIG work.
      Dry run conversion (FY 98 and prior)
      Complete HHS Payment Management
      System interface
      Dry run conversion (FY 99)
      Complete SPAN (Trust Fund) interface
      Begin user training
      Complete user training
      Shut down Federal Success
      Begin live conversion
      Conversion of bank and vendor file into
      production
      Conversion of FY 98 and prior data into
      production
      Conversion of FY 99 data into
      vroduction
      Bring up Momentum
      Verifv live conversion
      Complete National Finance Center
      payroll interface

Goal 5 - Objective 2: Modify VISTA Management System (VMS) to pass required information to the Momentum interface.

      Define accounting events that need to be   Not included in the review.               The Corporation reports these tasks as
      passed to the accounting system                                                      complete.
                                                                                           System implementation will be reviewed
                                                                                           as part of the fiscal year 1999 financial
                                                                                           statement audit.
      Develop requirements for outbound
      interface
 Task                  Task Description                                  Procedures                           Task Status/Observations
   #
   3       Program modifications to the VMS             Not included in the review.                   The Corporation reports these tasks as
           interface                                                                                  complete.
                                                                                                      System implementation will be reviewed
                                                                                                      as part of the fiscal year 1999 financial
                                                                                                      statement audit.
   4       Test outbound VMS interface

1 Goal 5   - Objective 3: Configure new   system to accommodate cost-share agreement transactions.

   1       Develop requirements to record cost          Not included in the review.                   The Corporation reports these tasks as
           share agreements directly in Momentum                                                      complete.
                                                                                                      System implementation will be reviewed
                                                                                                      as part of the fiscal year 1999 financial
                                                                                                      statement audit.
   2       Develop and test cost share interface with
           Momentum
   3       Begin to train staff in new procedures for
           processing on cost-share transactions

 Goal 5 - Objective 4: Establish formal procedures for quarterly review of general ledger accounts.

           Develop procedures for review of general Not included in the review.                       The Corporation reports these tasks as
           ledger accounts and designate                                                              complete.
           appropriate accounting staff to                                                            System implementation will be reviewed
           periodically review specified general                                                      as part of the fiscal year 1999 financial
           ledger accounts                                                                            statement audit.
           Review general ledger trial balance and
           initiate adjusting entries as appropriate
                       Task Description                                    Procedures                      Task Status/Observations


I   Goal 5 - Objective 5: Contingency back-up plan

I     1   I Provide "read only7'access to Federal         Not included in the review.              The Corporation reports these tasks as
                                                                                                   complete.
                                                                                                   System implementation will be reviewed
                                                                                                   as part of the fiscal year 1999 financial
                                                                                                   statement audit.
1     2   ( Determine if contingency plan needs to    I
I         I be implemented                            I
    Goal 6: Improve the accuracy and timeliness of Corporation financial statements.


    Goal 6 - Objective 1: Issue FY 1998 audited financial statements.

           Prepare FY 1998 Financial Statement            Not included in the review because the   Objective was not achieved. However, all
           Preparation and Audit Schedule                 outcome was already known. See           the tasks were completed as proposed.
                                                          observation.                             The audit of the fiscal year 1998 financial
                                                                                                   statements resulted in an unqualified
                                                                                                   opinion on the Statement of Financial
                                                                                                   Position and a disclaimer of opinion on
                                                                                                   the related Statement of Operations and
                                                                                                   Changes in Net Position and the
                                                                                                   Statement of Cash Flows.
           Review and sign-off on adjustments for
           year-ending closing
           Prepare draft FY 1998 financial
           statements
           Issue FY 1998 Management Letter
           Inspector General issues audit of FY
           1998 financial statements
           Corporation issues audited FY 1998
           financial statements and Annual Report
                                                                             52
Task               Task Description                                Procedures                            Task Status/Observations
  #

Goal 6 - Objective 2: Obtain an unqualified opinion in the Corporation's FY 1999 Financial statements.
                                                  --


       Issue FY 1999 year-end closing             Not included in the review                      The Corporation reports these tasks as
       instructions to Corporation after Treasury                                                 complete.
       provides year-end closing instructions                                                     System implementation will be reviewed
                                                                                                  as part of the fiscal year 1999 financial
                                                                                                  statement audit.
       Identify financial statement preparation
       team
       Determine how to estimate grant accrual
       for FY 1999 statements
       Schedule FY 1999 account closing in
       Momentum
       Develop schedule for preparation of FY
       99 financial statements
       Prepare financial disclosure checklist
       Issue guidelines on financial statement
       preparation and review
       Prepare draft FY 1999 financial
       statements
       Inspector General issues audit of the FY
       1999 financial statements
       Corporation issues FY 1999 Annual
       Report
I Task I                 Task Description                                     Procedures             Task Status/Observations



r
                                                                                                                                        -
    Goal 7: Complete remaining tasks to ensure that Corporation systems--hardware and software-are   Year 2000 compliant.
              -




    Goal 7 - Objective 1: Make PC workstations Year 2000 compliant.
                                                                                                                                        -
      1       Assemble Y2K software release                  The status assessment.           Task was completed as proposed.
                                                                                                                                        -
1     2   1 Test software release (Human Resources
          I

                                                         I                                  I Task was completed as proposed.
            Department)                                                                                                                 -
     3    , Begin roll-out                                                                    Task was completed as proposed.       -
1                                                        I                                  I Task was completed as proposed.
                  Y



     4    1 Complete workstation upgrade (HQ and
            Service Centers)                                                                  Planned completion was date was
                                                                                              December 30, 1998. Task was completed
                                                                                              on January 25, 1999.                  -




rn
    Goal 7 - Objective 2: Remediate headquarters network.

              Upgrade headquarters server                    The status assessment.          Task was completed as proposed.
                                                                                             However, the Corporation was unable to
                                                                                             provide supporting documentation to
                                                                                             substantiate the completion.

     2        Begin Service Center upgrades                                                  Task was completed as proposed.

     3        Complete Service Center upgrades                                               Task was completed as proposed.
     4        Assure Internal Mail system is compliant                                       The Corporation reports the task
                                                                                             completed as proposed. However, the
                                                                                             Corporation was unable to provide
                                                                                             supporting documentation to substantiate
                                                                                             the completion.
I Task I                 Task Description                                   Procedures           Task Status/Obsewations
   #
   5       Install firewall necessary for external         The status assessment.        The Corporation reports the task
           mail compliance                                                               completed as proposed. However, the
                                                                                         Corporation was unable to provide
                                                                                         supporting documentation to substantiate
                                                                                         the completion. Planned completion date
                                                                                         was December 9, 1998. Task was
                                                                                         completed on February 19, 1999.

 Goal 7 - Objective 3: Remediate disaster recovery network

   1       Initiate upgrade                                Not included in the review.   The Corporation reports this objective as
                                                                                         in-process.
                                                                                         Implementation will be tested in hture
                                                                                         OIG work.
   2       Complete and test equipment upgrades
   3       Test disaster readiness

I Goal 7   -   Objective 4: Deploy software to State offices

           Prepare software upgrade on computer            Not included in the review.   The Corporation reports this objective as
           disc (CD) for state offices.                                                  in-process.
                                                                                         Implementation will be tested in future
                                                                                         OIG work.
           Replace legacy equipment
           Determine state office modem
           requirements for existing equipment
           Workstation software upgrades start
           Re-assess strategies for remaining field    I
           office personal computers; purchase new
           PCs for field
           Complete field workstation upgrades and
           install Y2K-compliant software
[ Task    1               Task Description                                     Procedures          Task Status/Observations

                                                              Not included in the review.   The Corporation reports this objective as
              to state offices to test workstations and                                     in-process.
              laptops                                                                       Implementation will be tested in future
                                                                                            OIG work.
      8       Reconfigure State laptops with Y2K
              compliant software
      9       Receive State Director reports on
          1   problems encountered during                 1
          I   independent test process

I   Goal 7 - Objective 5 : Make each NCCC campus compliant.

              Confirm status of NCCC administrative           Not included in the review.   The Corporation reports this objective as
              network upgrade                                                               in-process.
                                                                                            Implementation will be tested in future
                                                                                            OIG work.
              Determine requirements for NCCC
              classroom
              Make NCCC network compliant with
              Corporation standards
              Decide on new strategy for ensuring that
              NCCC carnuuses are compliant




                -
              Migration of Charleston ~ O H Q
              Migration of San Diego to HQ
Task               Task Description                                 Procedures                            Task Status/Observations
  #

Goal 7 - Objective 6: Ensure that client-oriented database applications are Year 2000 compliant.

       Determine most effective discovery          Not included in the review.                     The Corporation reports this objective as
       methodology for identifying Year 2000                                                       m-process.
       issues in Corporation desktop                                                               Implementation will be tested in future
       applications.                                                                               OIG work.
       Ensure desktop applications and custom
       databases are compliant.

Goal 7 - Objective 7: Independent verification and validation.

       Determine independent verification and      The status assessment.                          Task was completed as proposed.
       validation (IV&V) strategy.
       Prepare and issue statement of work for                                                     Task was completed as proposed.
       IV&V contractor.                                                                            Planned completion date was April 15,
                                                                                                   1999. Task was completed on May 26,
                                                                                                   1999.
       Select IV&V contractor.                                                                     Task was completed as proposed.
                                                                                                   Planned completion date was May 15,
                                                                                                   1999. Task was completed on July 2,
                                                                                                   1999.
       Assure that equipment is Y2K compliant;                                                     Task was completed as proposed.
       e.g. phone, audix system, fax, copiers,                                                     Planned completion date was May 30,
       etc.                                                                                        1999. Task was completed on July 9,
                                                                                                   1999.
       Confirm that facilities are Y2K                                                             Task was completed as proposed.
       compliant.                                                                                  Planned completion date was May 30,
                                                                                                   1999. Task was completed on August 3 1,
                                                                                                   1999.
       Complete the verification process.                                                          Task is considered partially complete,
                                                                                                   pending follow-up with contractor as
                                                                                                   noted in Exhibit A.
I Task I             Task Description                                    Procedures                               Task Status/Observations
   #   I                                                                                              I

 In addition to assessing the status of the tasks under this objective, we ( Results:
 performed the following procedures:

 1. Obtain the results of the Independent Verification and Validation      We were unable to review the Corporation's response because the
    study of the Corporation's Y2K remediation efforts and the             report was provided to us on 9130199 and no response had been
    Corporation's response to the recommendation's made.                   prepared. Therefore, we were only able to review the IV&V
 2. Review the Corporation's documentation supporting actions taken        contractor's report. Based on our review we noted several items in
    in response to the Independent Verification and Validation study.      the contractor's report that should be addressed by the Corporation in
    Assess whether actions taken adequately address the                    collaboration with the contractor. Items for follow-up are noted in
    recommendations made in the study.                                     Exhibit A.


Goal 8: Use information technology to make Corporation work processes more efficient, and to better access data for policy and
decision making.


Goal 8 - Objective 1: Recruit Chief Information Officer (CIO) and provide appropriate resources for IT improvements.

           Post vacancy announcement for Chief       The status assessment.                               The original vacancy was not filled as
           Information Officer (CIO)                                                                      planned. Therefore, the Corporation is in
                                                                                                          the process of recruiting a new candidate.
                                                                                                          A new completion date should be
                                                                                                          established.

                                                                                                          To date, the Director of the Office of
                                                                                                          Information Technology has maintained
                                                                                                          IT services but no IT advocate has
                                                                                                          consistent access to strategic level
                                                                                                          decision making in the Corporation.
                                                                                                          Therefore, we recommend the
                                                                                                          Corporation continue its efforts to hire a
                                                                                                          CIO.
Task (                Task Description                                 Procedures          Task Status/Observations
  #
  2      Select CIO                                   The status assessment.        Task is in process. Due date of October
                                                                                    3 1, 1999 should be revised. Planned
                                                                                    completion date was February 28, 1999.
  3      CIO develops plan and budget for IT                                        This task cannot begin until the task to
         improvements                                                               "select CIO" is complete.

Goal 8 - Objective 2: Improve state office connectivity to HQ

         Perform cost benefit analysis of options   The status assessment.          Task was completed as proposed.
         for improving State office access to email
         and Corporation databases
         Select three state offices for initial                                     Task was completed as proposed.
         installation of flame relay equipment



         Secure and install frame relay circuits in                                 Task is in process. Planned completion
         pilot states                                                               date was July 3 1, 1999. Revised
                                                                                    completion date of October 1, 1999
                                                                                    should also be revised.

Goal 8 - Objective 3: Design grants information system.

         Design interim DVSA grants system to         The status assessment.        The Corporation reports the task
         replace Federal Success grant module for                                   completed as proposed. However, the
         award generation                                                           Corporation was unable to provide
                                                                                    supporting documentation to substantiate
                                                                                    the completion. Planned completion date
                                                                                    was June 1, 1999. Task was completed on
                                                                                    September 15, 1999.
Task               Task Description                                Procedures          Task Status/Observations
  #
  2    Start design work on single Grants          The status assessment.       Task is in process.
       Information System for DVSA and
       NCSA programs                                                            This objective should result in the
                                                                                implementation of an information system
                                                                                for grants that will achieve the
                                                                                improvement in work processes and data
                                                                                access desired by the Corporation.
  3    Prepare first draft of needs assessment                                  Task is in process. Based on the current
                                                                                status the planned completion date of
                                                                                September 8, 1999, should be revised.
                                                                                Overall, we recommend that follow up
                                                                                tasks be established to implement the
                                                                                grants information system and to perform
                                                                                an evaluation of whether the system is
                                                                                hnctioning as intended.

Goal 8 - Objective 4: Design procurement module.

  1    Analyze options related to procurement      The status assessment.       The Corporation reports the task
       data needs, including examination of off-                                completed as proposed. However, the
       the-shelf systems                                                        Corporation was unable to provide
                                                                                supporting documentation to substantiate
                                                                                the completion. Planned completion date
                                                                                was July 15, 1999. Task was completed
                                                                                on September 30, 1999, the revised
                                                                                completion date.

 2     Select procurement module                                                Task is in process. Planned completion
                                                                                date was August 15, 1999. Revised
                                                                                completion date is November 30, 1999.
Task   I               Task Description                                 Procedures                         Task Status/Obsewations

                                                                                                   This objective should result in the
                                                                                                   implementation of a procurement module
                                                                                                   for the financial management system. The
                                                                                                   objective should not end at the design of
                                                                                                   the module in order to accomplish the
                                                                                                   improvement in work processes desired
                                                                                                   by the Corporation. Therefore, we
                                                                                                   recommend that follow up tasks be
                                                                                                   established to implement the procurement
                                                                                                   module and to perform an evaluation of
                                                                                                   whether it is hnctioning as intended.

Goal 9: Award and administer contracts in compliance with statutory and regulatory requirements.


Goal 9 - Objective 1: Ensure that Corporation staff correctly uses up-to-date procurement policies and procedures.
                                                       --


                                                       The status assessment.                      Based on the current status of this task the
                                                                                                   revised completion date of August 30,
           findings are addressed                                                                  1999 should be revised. Planned
                                                                                                   completion date was June 30, 1999.
  2        Provide training on use of Purchase                                                     Task was completed as proposed.
           Cards
  3        Provide training for procurement staff on                                               Task was completed as proposed.
           FAR changes                                                                             Planned completion date was May 3 1,
                                                                                                   1999. Task was completed on July 13,
                                                                                                   1999.




       -
Task   1              Task Description                                Procedures          Task Status/Observations

           Provide training for COTRs and             The status assessment.       Task was completed as proposed.
           procurement staff on contract                                           Planned completion date was June 30,
           management                                                              1999. Task was completed on August 10,
                                                                                   1999.
           Complete corrective actions to address                                  Planned completion date of September 30,
           findings in procurement audit except for                                1999, should be revised, as procurement
           procurement module                                                      directives have not been drafted.
Task    I            Task Description                                    Procedures                             Task Status/Obsewations
  #     I                                                                                              I

In addition to assessing
                       - the status of the tasks under this objective, we   Results:
performed the following procedures:
      Review and comment on the adequacy of any procurement                 We reviewed the Corporation's draft procurement policies and
      policies and procedures issued since October 1998.                    procedures. The Corporation is in the process of issuing the finalized
      Review and comment on corrective actions taken in response to         procurement policies and procedures. The procurement directives
      OIG's Audit Report 98-24 (attached), Audit of the Corporation 's      that specifically relate to the procurement office were not drafted as of
      Procurement and Contracting Processes and Procedures.                 the date of our review.
      Determine the status of annual workplans, to include training
      plans and employee ratings for procurement staff.                     The Corporation should ensure that the OIG review comments are
                                                                            adequately addressed before issuing the policies and procedures. We
                                                                            believe these polices and procedures need to be more thoroughly
                                                                            developed. We recommend for Policy No. 350 that the Corporation
                                                                            designate a Human Resource official who will 1) review all
                                                                            temporary help contracts and submit signatory review to the
                                                                            procurement office before the contract is executed and 2) monitor the
                                                                            120 day workdays limit. Additionally, we recommend that the
                                                                            Corporation's policies and procedures be more explicit by requiring
                                                                            documentation of the review and requiring signatory approval by the
                                                                            reviewer.
                                                                            We reviewed management's response to OIG Audit Report 98-24.
                                                                            This report identified 19 findings. Twelve of the findings were
                                                                            adequately addressed in the draft procurement policies and
                                                                            ?rocedures. Six findings should be addressed through the
                                                                            Procurement office specific procurement directives that the
                                                                            Corporation plans to draft.
                                                                            rhough our review of a sample of annual workplans for procurement
                                                                            staff employees, we noted that training was not directly related to job
                                                                            :stings or compensation. The procurement office worked closely with
                                                                            Zorporation management to ensure that Procurement training was
                                                                            ~fferedto all Procurement personnel. Procurement staff training
                                                                            ittendance was strongly encouraged by the Director. We noted that
                                                                            ;he COTR and FAR & Audit 98-24 training courses were attended by
                                                                            ;everal members of the Procurement staff.
                       Task Description                                   Procedures                              Task Status/Observations


I   Goal 9 - Objective 2: Ensure that the office of procurement services is organized and staffed to carry out its mission.

      1     Hire new contract specialist                No included in the review.                        The Corporation reports this task as
                                                                                                          in-process.
                                                                                                          Implementation will be tested in future
                                                                                                          OIG work.




    Goal 9 - Objective 3: Address audit findings related to personal services contracts.

      1    Assess requirements for administrative       The status assessment.                           Task was completed as proposed.
           support services. Recruit personnel in
           lieu of contracted administrative support
     2     Assess requirements for professional                                                          Task was completed as proposed.
           services and determine appropriate                                                            However, actions required to determine
           actions for current contract                                                                  task completion need to be more clearly
                                                                                                         defined. Planned completion date was
                                                                                                         April 30, 1999. Task was completed on
                                                                                                         June 2,1999.
                                                                                                         The Corporation considers the task
                                                                                                         completed as proposed, because it is
                                                                                                         discontinuing the use of professional
                                                                                                         service contracts.
I Task (             Task Description                                    Procedures                             Task Status/Observations
   # I
 In addition to assessing the status of the tasks under this objective, we   Results:
 performed the following procedure:

 1. Review and comment on the adequacy of the following                      We were informed by Office of Procurement Services Director that
    assessments which were performed by Procurement per the                  the Corporation does not intend to participate in administrative
    Action Plan:                                                             support contracts. Instead they plan to obtain temporary assistance as
       Requirements for administrative support services;                     needed. Procedures for hiring temporary help are addressed in the
       Requirements for professional services (to include appropriate        draft procurement policies and procedures. However, we recommend
        actions for the current contract); and                               that the Corporation develop these procedures more thoroughly. We
       The appropriate manner in which to obtain professional                also noted that the Corporation has developed specific policies and
       services.                                                             procedures to address professional services.
        APPENDIX A


THE CORPORATION'S RESPONSE
                                                             CORPORATION

                                                             FOR NATlONAL




 November 19, 1999


 TO                     : Luise Jordan
                           Inspector General

 FROM                    : Wendy Zenker
                           Chief Operating Offi

  SUBJECT                : Comments on Draft Audit Report 00-13, Review of the Corporation for
                           National Service Action Plan


  Thank you for the opportunity to comment on the subject draft report. The draft audit report
  provides an assessment of the Corporation's progress in implementing the Action Plan The
  Action Plan reflects the Corporation's management improvement priorities First issued in
  December, 1998, we have continuously monitored and revised the Plan throughout the year
  On a bi-monthly basis, progress reports have been provided to the Congress, and to your
  office, along with supporting documentation for the tasks which are completed

  Overall, we are making good progress - and also recognize that we have much more to do
  In our most recent submission to the Congress, dated October 21, 1999, the Corporation
  reports that 206 of 274 tasks are completed As we continue our work on the remaining
  tasks, we will also be revising the Plan, consistent with final appropriation levels, to include
  important new tasks that are integral to accomplishing the Corporation's mission. As we
  develop our FY 2000 Plan, we will endeavor to be more realistic in setting the planned dates
  for completion of tasks (as recommended by the auditors), given the resources available to
  the Corporation.

  In reviewing the draft audit report, we noted that the auditors identified significant
  accomplishments during the year, and also encouraged the Corporation to be more diligent
  in certain areas. We agree with the priorities noted by the auditors, particularly the
  information technology and system improvements that are needed. This is an area of
  emphasis for FY 2000.

  The Corporation will continue to emphasize the work needed in the new financial
  management system and in the web-based reporting system (WBRS). The draft report notes
  that financial system implementation will be reviewed in future Office of Inspector General
  work. With respect to WBRS, additional information is now available with respect to the
  tasks planned for completion in October, 1999. The Corporation is making good progress -
  almost all of the States are enrolling members in WBRS as planned, and the Corporation is
  further monitoring the participation of programs. The AmeriCorps Program staff, the Trust



                                                                                                         .
NATIONAL SERVICE: GETTING THINGS DONE
AmrnCorps   - Learn unii Serw Amcncu . hrationnl Senior Set vice Corps   Q   1201 New York Avenue, N.W Washington, D.C. 20525
                                                                                                   .
                                                                             telephone:202-606-5000 website:www.nationalservice.org
staff and DEEP staff are participating in WBRS training, and regular WBRS reports are
used to monitor and assess program activity. Corporation staff will follow-up with State
Commissions as needed.

The draft report makes several recommendations, some of which have been previously
identified in other audit reports. We agree with many of these recommendations, and
disagree with others. In the FY 2000 Action Plan and as part of the audit resolution process,
we will address those recommendations we agree with, and provide the Office of the
Inspector General our rationale for those recommendations with which we disagree.

We look forward to continuing to work with the Office of Inspector General on the Action
Plan and the FY 1999 financial statement audit. If I can provide any additional information,
please contact me.
